<html>
<title> - DEMOCRACY, DEVELOPMENT, AND DEFENSE: REBALANCING U.S.-AFRICA POLICY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                      DEMOCRACY, DEVELOPMENT, AND
                DEFENSE: REBALANCING U.S.-AFRICA POLICY

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              May 16, 2019

                               __________

                           Serial No. 116-40

                               __________

        Printed for the use of the Committee on Foreign Affairs

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov                       
                       
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-425PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
                      
                       
                       

                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey		     CHRISTOPHER H. SMITH, New Jersey     
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida	     JOE WILSON, South Carolina
KAREN BASS, California		     SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts	     TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island	     ADAM KINZINGER, Illinois
AMI BERA, California		     LEE ZELDIN, New York
JOAQUIN CASTRO, Texas		     JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada		     ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California		     FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania	     BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLPS, Minnesota	             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota		     KEN BUCK, Colorado
COLIN ALLRED, Texas		     RON WRIGHT, Texas
ANDY LEVIN, Michigan		     GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia	     TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey	     STEVE WATKINS, Kansas
DAVID TRONE, Maryland		     MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas                              
                    

                    Jason Steinbaum, Staff Director
               Brendan Shields, Republican Staff Director                           
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Nagy, Ambassador Tibor P., Jr., Assistant Secretary, Bureau of 
  African Affairs, U.S. Department of State......................     7
Day, Mr. Ramsey, Senior Deputy Assistant Administrator, Bureau 
  for Africa, U.S. Agency for International Development..........    11
Lenihan, Ms. Michelle, Acting Deputy Assistant Secretary of 
  Defense for African Affairs, U.S. Department of Defense........    21

                                APPENDIX

Hearing Notice...................................................    66
Hearing Minutes..................................................    67
Hearing Attendance...............................................    68

              ADDITINAL MATERIALS SUBMITTED FOR THE RECORD

War on the Rocks article submitted for the record by 
  Representative Omar............................................    69

            RESPOSNSES TO QUESTIONS SUBMITTED FOR THE RECORD

Responses to questions submitted to Mr. Nagy for the record from 
  Chairman Engel.................................................    79
Responses to questions submitted to Ms. Lenihan for the record 
  from Chairman Engel............................................    92
Responses to questions submitted to Mr. Day for the record from 
  Chairman Engel.................................................    97
Responses to questions submitted to Mr. Nagy for the record from 
  Representative McCaul..........................................    99
Responses to questions submitted to Mr. Day for the record from 
  Representative McCaul..........................................   102

 
  DEMOCRACY, DEVELOPMENT, AND DEFENSE: REBALANCING U.S.-AFRICA POLICY

                         Thursday, May 16, 2019

                        House of Representatives

                      Committee on Foreign Affairs

                                     Washington, DC

    The committee met, pursuant to notice, at 10:12 a.m., in 
room 2172 Rayburn House Office Building, Hon. Eliot Engel 
(chairman of the committee) presiding.
    Chairman Engel. The committee will come to order.
    Without objection, all members will have 5 days to submit 
statements, extraneous material, and questions for the record, 
subject to the length limitation in the rules.
    This morning, the committee will hear from officials from 
the State Department, the U.S. Agency for International 
Development, and the Defense Department about American efforts 
to promote democracy, sustainable development, and regional 
stability in Africa and how the Administration is working 
across agencies to achieve our goals.
    Welcome to our witnesses. I thank you all for your time and 
your service, and welcome to members of the public and press as 
well. I now recognize myself for an opening statement.
    One of our biggest policy challenges in sub-Saharan Africa 
is figuring out how to help stabilize fragile States and reduce 
violence. Over the past 20 years, we have learned a lot about 
what works and what does not. We know that it requires 
strategic vision, it takes adequate long-term funding, and it 
takes coordination across the U.S. Government.
    Mr. McCaul and I recently reintroduced the Global Fragility 
Act to promote this approach. Our bill would make sure relevant 
agencies are working closely together over the long term to 
address State fragility and to prevent violence and extremism 
in priority countries and regions around the world. This would 
be the top American goal in these countries, not a second or 
third tier objective.
    My concern is that the Administration is taking an 
unbalanced approach favoring security-focused responses instead 
of getting to the root causes of instability which would 
prevent the need for military involvement down the road. We 
have seen a number of cases in where lip service has been paid 
to good governance and respect for human rights. But, in 
practice, we have shared an approach based on our values and 
instead gone after long-term solutions.
    Take Uganda for example, one of the country's main security 
partners in sub-Saharan Africa, a country where we should have 
leverage. Yet, authorities there have ramped up repression and 
violence against opposition politicians and civil society. 
After three decades in power, Museveni is tightening his grip 
as the United States' response is reduced to reiterating 
requests to stop arresting and torturing anyone who dares to 
oppose the government. And we have yet to see a change in 
Uganda's trajectory.
    Or the DRC, Democratic Republic of Congo. In January, the 
United States endorsed clearly fraudulent election results 
simply because the Administration did not believe the 
opposition leader, who actually won, could ever take office. 
What message does it send when the United States refuses to 
stand up for democracy, and the United States refuses to call 
out this sort of corruption?
    Ironically, making regional security a top priority above 
all else ultimately undermines long-term stability on the 
continent. It is a failure of leadership, and compounded by the 
Administration's attempts to gut diplomacy and development.
    We have talked about that here. We cannot conduct good 
diplomacy and good development if you are gutting these 
programs and gutting money to the State Department, and looking 
at it as a second or third tier priority. It sends a message. 
It sends a bad message. It sends a message to the agencies best 
poised to grapple with these challenges that they are not a 
priority. It sends a message to the rest of the world that the 
United States is ceding ground to any other power that wants to 
put down roots.
    And you can bet that message is being heard loudly and 
clearly in Moscow and Beijing.
    In Sudan and South Africa, Russia is already using the same 
playbook they used to attack the United States in 2016 to 
spread disinformation. Kremlin-aligned private military 
corporations are getting a foothold in the Central African 
Republic, Chad, which may be a precursor to similar Russian 
military involvement across the continent. China now has a 
military base in Djibouti, making it the only country in the 
world that hosts both a Chinese and an American military base--
talk about hedging your bets. China also has been actively 
exporting surveillance technology to African governments as a 
threat to open civic and political spaces already quite fragile 
in some countries.
    And there are a number of hotspots across sub-Saharan 
Africa that deserve our immediate focus. At the top of the list 
is Sudan. Since December, Sudanese citizens have peacefully 
protested against the government's repression and mismanagement 
of the economy. In mid-September, Sudanese security forces 
seized power from Omar al-Bashir, ending three blood-soaked 
decades in power. But despite calls from the African Union and 
other partners, including the United States, the Transitional 
Military Council has not been responsible to protesters' 
demands for an immediate transition to a civilian government.
    Earlier this week at least eight protesters were killed by 
government security forces. And the longer the stand-off 
between the military and the protesters lasts, the greater the 
threat for widespread violence and great destabilization. I 
urge the Administration to keep working with other diplomatic 
partners to encourage and incentivize an immediate transition 
to a civilian-led government in Sudan.
    I am also deeply concerned about the Ebola outbreak in the 
Democratic Republic of Congo. It has now surpassed 1,600 cases. 
The United States has supported the Congolese Government's 
response, but poor access, distrust of the government, and 
attacks against healthcare workers have hindered efforts to 
identify and treat cases.
    I have to mention, when we invest strongly in global health 
we are better able to mount a response and help both DRC and 
surrounding countries, like South Sudan and Rwanda, build their 
capacity to prepare for future outbreaks. That is why it is so 
baffling when the Administration sends up budgets requesting 
deep cuts to these efforts and uses bad tactics to delay and 
deny funding against congressional intent.
    So, I would like to hear our witnesses' answers on this 
range of issues. I look forward to a frank discussion. I am 
going to introduce our witnesses. But first I will yield to our 
ranking member, Mr. McCaul of Texas, for any opening remarks he 
may have.
    Mr. McCaul. Thank you, Mr. Chairman.
    The United States has been a long and consistent partner 
with many African nations. Successful initiatives such as 
PEPFAR, the President's Malaria Initiative, Feed the Future, 
and the Millennium Challenge Corporation have already saved 
millions of lives, created jobs, and spurred economic growth. 
Just last month I traveled to Cote d'Ivoire, Rwanda, Tunisia 
with Senator Lindsey Graham where we helped launch the Women's 
Global Development and Prosperity Initiative.
    This initiative will provide work force development and 
skilled training, expand access to capital for entrepreneurs, 
and remove barriers to women's participation in the economy 
through microfinancing.
    Some of the fastest growing economies in the world are in 
Africa, and it is the fastest growing population as well, with 
a growing number of middle class consumers. This means new 
markets for U.S. companies, and new opportunities to partner 
with the United States. However, countries must have a clear-
eyed approach on how this growth is being achieved and who they 
are partnering with.
    Between 2000 and 2017, China loaned African countries $143 
billion for infrastructure projects. China has used Africa's 
growth as an opportunity for geographic and ideological 
expansion through their Belt and Road Initiative, which preys 
on developiong nations, leaving them largely in debt traps.
    The United States must provide a better alternative to 
China's exploitation. I have met with African governments, and 
Ambassadors, and business leaders, and they all tell me the 
same thing, that the U.S. is their preferred partner but we are 
just simply not there. Ambassador Nagy, you and I just 
discussed that prior to the hearing.
    The United States brings quality, transparency, and 
partnership, but we must show up to the game to compete. And 
that is why in my bill, the Championing Business Through 
Diplomacy Act, American business is so important. I think it 
helps ensure that the State better supports American companies 
of all sizes looking to invest in Africa and elsewhere, 
bringing prosperity and, most importantly, stability.
    The chairman and I introduced the Global Fragility Act, 
which I think is a very important bill, to help stabilize a 
destabilized continent, particularly when you look at the 
Sahel, which the Department of Defense, as Ms. Lenihan knows 
very well, the Sahel is going to be the next hotspot, I think, 
for if we cannot do the prevention piece right, then we have to 
send in the military.
    And I think the Global Fragility Act is a good playbook for 
the Department of Defense to look at how we can prevent 
extremism so we do not have to go in and kill.
    Now, the BUILD Act that Mr. Yoho introduced is a profound, 
significant piece of legislation that will put OPIC on 
steroids, and I think economic investment and opportunity from 
the private sector.
    In line with my legislation, I applaud the Administration 
for their work on Prosper Africa to increase two-way trade with 
African countries. The United States also plays an important 
role supporting good governance and democratic values on the 
continent. We must continue working with countries to combat 
corruption and respect human rights.
    In Ethiopia we have seen an historic transition. And I 
commend the bold reforms by Prime Minister Abiy.
    In Sudan the people have risked their lives to call for a 
civilian-led government, an end to Omar al-Bashir's brutal 
regime. The U.S. must stand by the people of Sudan during this 
critical moment in their history.
    I know very well from my time as chairman of Homeland 
Security that ungoverned and unstable places become safe havens 
for terrorists to regroup and plan attacks and external 
operations. I am deeply disturbed by the number of increasing 
attacks targeting innocent civilians, including women and 
children.
    The United States must continue to stand with our African 
partners in the fight against radical Islamist terrorism. And 
that is why proactive investments in security and development 
now will make the United States far safer in the long run.
    I am also concerned that the proposed reduction in U.S. 
Special Forces and advisors in the Sahel is premature. My bill, 
the Trans-Sahara Counterterrorism Partnership Act, calls for an 
interagency approach to address these threats.
    I think these witnesses today have valuable insight into 
these challenges facing Africa. It brings together, you know, 
State, USAID, and Defense, which is what our Global Fragility 
Act bill actually does, in an interagency, whole government 
approach to address this challenge that we have.
    And with that, Mr. Chairman, I yield.
    Chairman Engel. Thank you, Mr. McCaul.
    Our witnesses this morning are Tibor P. Nagy, Jr., 
Assistant Secretary of State for Africa Affairs; Ramsey Day, 
USAID Senior Deputy Assistant Administrator for Africa; and 
Michelle Lenihan, Acting Deputy Assistant Secretary of Defense 
for Africa Affairs.
    Once again let me welcome you all and convey the thanks of 
the committee. I will now recognize you each for 5 minutes to 
summarize your testimony. Let's start with Assistant Secretary 
Nagy.

     STATEMENT OF AMBASSADOR TIBOR P. NAGY, JR., ASSISTANT 
 SECRETARY, BUREAU OF AFRICAN AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Nagy. Thank you very much.
    Good morning, Chairman Engel, Ranking Member McCaul, 
members of the committee. I am pleased to be joined here today 
by my colleagues from USAID and the Department of Defense. Our 
engagement across Africa is truly a team effort. I would also 
like to recognize the men, women, and families currently 
serving the American people across our missions in Africa and 
within our offices in Washington. I am grateful to represent 
such a dedicated and talented group of public servants.
    When speaking to audiences, be they Americans or Africans, 
I often tell them that the best way to view Africa is through 
the windshield, not the rearview mirror. It is certainly a time 
of challenges and opportunities in Africa, and I look forward 
to sharing with you what we at the State Department are doing 
to advance U.S.-Africa foreign policy priorities.
    I spent the vast majority of my 32-year diplomatic career 
in Africa, with posting in seven different countries, and I 
fell in love with the continent and its people. Since I assumed 
my current role last September, I have visited Africa three 
times, with another trip planned next month. During my trips, I 
have engaged with government officials, business leaders, civil 
society, and average citizens, in order to better understand 
each country and subregion through a broad range of people and 
perspectives.
    As I said before this committee last December, the 
potential for increased engagement with Africa economically, 
culturally, and diplomatically is truly limitless. I am a firm 
believer that with every challenge there is opportunity, and we 
must capitalize on our successes.
    We have seen significant, positive signs in numerous areas 
that are important to recognize. Prime Minster Abiy in Ethiopia 
continues to impress and inspire with his leadership, and we 
have seen progress in our relationship with Eritrea. President 
Lourenco of Angola has demonstrated a commitment to fight 
corruption and to foster citizen-responsive governance and 
dialog that can, and should be, replicated elsewhere.
    Just 6 months ago, discussions about the Democratic 
Republic of Congo revolved around how to promote the will of 
the Congolese people in the face of a government trying to 
cling to power through unconstitutional means. By contrast, 
when Secretary Pompeo recently met with President Tshisekedi of 
the DRC following the historic transfer of power, the new 
president's priorities were fighting corruption, strengthening 
governance, advancing human rights, and combating trafficking 
in persons. And we continue to watch the dramatic events unfold 
in Sudan where, for the first time in 30 years, a transition 
led by civilians representing the diversity of Sudanese society 
seems possible.
    To underscore the U.S. commitment to Africa, the 
Administration announced a new Africa Strategy in December 2018 
to re-calibrate our engagement with the continent. This 
strategy seeks to promote trade and commercial ties to increase 
prosperity in the United States and in African countries, 
counter radical Islamic terrorism and violent conflict, 
strengthen efforts to advance peace and security by 
prioritizing resources and promoting effective and efficient 
peacekeeping operations; and by supporting stability, 
democracy, good governance, and self-reliance. Ultimately, the 
success of this strategy would build on our strong 
relationships with individual countries, effective regional 
organizations and, most importantly, the people of Africa.
    One enduring issue that I believe will be most significant 
in setting the course for a more prosperous and secure Africa 
is harnessing the potential of Africa's potential youth bulge 
as a force for economic ingenuity and prosperity. Their 
education, training, and successful integration into the 
economic futures of their countries will create viable 
alternatives to the poverty that leads to violent extremism and 
despair.
    Looking ahead, the population of Africa is expected to 
double in just a few short decades to 2.2 billion people, of 
which over 60 percent will be under 25 years. The enormous 
potential of these young people creates a wealth of economic 
opportunities that will determine the continent's future.
    We are not the only international actor that is interested 
in Africa. And we are justifiably concerned about certain 
countries that seek to exploit the resources of African nations 
and subvert Africans' desire for democracy for their own 
economic or geopolitical advantage.
    As you will hear today, no other nation matches the breadth 
and depth of the United States' engagement on the continent, or 
our earnest promotion of partnerships, sustainability, and 
self-sufficiency. We go beyond simply investing in Africa to 
investing in Africans. Africa is the dynamic continent of the 
future, and the direction it takes will have a major impact--
for good or ill--not only in the Africa but the rest of the 
world.
    As the subject of today's hearing suggests, this is not a 
role for the State Department alone. We must constantly 
evaluate our approach and ensure a proper balance between the 
three D's. Properly aligning our diplomatic, development, and 
defense tools and resources is critical. Successful engagement 
and true partnership with the people and governments of Africa 
comes from this coordinated and fully integrated approach.
    I would like to thank the committee for you bipartisan 
support and engagement on issues in Africa. I look forward to 
your questions. Thank you.
    [The prepared statement of Mr. Nagy follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Engel. Thank you.
    Mr. Day.

     STATEMENT OF MR. RAMSEY DAY, SENIOR DEPUTY ASSISTANT 
ADMINISTRATOR, BUREAU FOR AFRICA, U.S. AGENCY FOR INTERNATIONAL 
                          DEVELOPMENT

    Mr. Day. Thank you, Mr. Chairman. Good morning, Chairman 
Engel, Ranking Member McCaul, members of the committee. Thank 
you for the opportunity to appear before you today. I 
appreciate the commitment this committee has demonstrated to 
the continent of Africa.
    As USAID Administrator Mark Green always says, the purpose 
of foreign assistance should be to end the need for its 
existence.
    USAID supports the President's Africa Strategy, and is 
modernizing the way we do business. Our foreign assistance will 
help our friends on the continent achieve sustained economic 
growth and self-reliance to combat transnational threats. Given 
time limitations, I cannot touch upon all of our work in every 
country, so I will focus on some of the themes and situations 
at the forefront of our attention.
    On March 4th, 2019, Cyclone Idai brought devastation to 
Mozambique, Malawi, and Zimbabwe. Torrential rains covered 
nearly 900 square miles in water, an area roughly the size of 
New York City and Houston combined. More than 1,000 people lost 
their lives, and 3.5 million people are in desperate need of 
assistance.
    USAID quickly deployed a Disaster Assistance Response Team, 
or DART Team, which includes experts in health, food security, 
shelter, water, sanitation, and hygiene. To reach communities 
cutoff by the storm, we requested the unique capabilities of 
the Department of Defense. The U.S. African Command, or 
AFRICOM, provided airlift and logistics support with 73 
flights, and transported more than 782 metric tons of relief 
supplies.
    Just 5 weeks later, Cyclone Kenneth struck Mozambique. And 
USAID deployed a team to determine additional needs.
    The Democratic Republic of Congo, DRC, declared an Ebola 
outbreak in August 2018. Health officials have recorded at 
least 1,700 cases, including over 1,100 deaths. The U.S. 
Government deployed a DART team which is coordinating with the 
DRC Ministry of Health, the World Health Organization, and key 
actors to support a unified response to the outbreaks. The 
Ebola response remains a very high priority of the U.S. 
Government.
    We also see threats to democracy. Rarely these days do 
authoritarian leaders oppose elections outright. Instead, they 
use sophisticated tools to bend elections to maintain their 
grip on power. We know that good governance, peace, and 
security can help unlock the vast potential of Africa. And 
across the continent, 34 countries have improved their 
governance performance over the last 10 years, and elections in 
Nigeria and Senegal earlier this year were largely free of 
violence.
    There are, however, threats to these positive trends. Some 
governments have worked to close space for independent civil 
society, media, and opposition parties. The last few years in 
Uganda and Tanzania have been marked by a closing of political 
space, which is likely to continue as both nations head toward 
elections.
    At the same time, there has been an unprecedented wave of 
social and political protests across Africa. In places like 
Sudan, citizens are standing up and voicing their demands.
    Learning from our experience in countries such as the DRC, 
Nigeria, and Kenya, we know that when it comes to democracy, 
development, and security, the approach must be holistic and 
balanced. This is why our resources focus on areas critical to 
advancing countries on their journey to self-reliance. And we 
will continue to support electoral processes and peaceful 
political transitions.
    We also work with major political parties on issue-based 
campaigns, the inclusion of women and youth, and provide 
training for media on election coverage. Through the Trump 
administration's Women's Global Development and Prosperity 
Initiative, WGDP, landed in February, USAID is working to 
promote women's economic empowerment in Africa. We know that 
supporting women, from improving their land tenure rights to 
unlocking access to credit and employment, can unleash their 
full economic potential.
    USAID is also embracing partnerships with the private 
sector like never before, reducing barriers to trade and 
investment, and fostering linkages between American and African 
firms. The U.S. Government's Prosper Africa initiative will 
enhance our efforts in these areas. Prosper Africa mobilizes 
the full U.S. Government toolkit of approaches, capabilities, 
and influence across 15 government agencies to double trade and 
investment between the U.S. and Africa.
    And USAID deeply values the leadership of Chairman Engel 
and Ranking Member McCaul for their sponsorship of House 
Resolution 1704, the Championing American Business through 
Diplomacy Act of 2019. This resolution, which aims to promote 
American business abroad, is in direct support of the goals of 
Prosper Africa.
    Countering violent extremism is also a critical part of 
USAID's work in Africa. We engage government and the civil 
society partners in their efforts to reduce radicalization, 
recruitment, and support to violent extremist organizations. 
For more than a decade the U.S. Government has pursued a 
coordinated 3D approach to the evolving terrorism threat on the 
continent. Regular coordination with the Departments of State 
and Defense, including AFRICOM, creates a space where we can 
determine how to use the U.S. Government's diplomatic, defense, 
and development tools to their greatest effect.
    As we reflect on the challenges facing individual 
countries, it is important not to lose sight of the long-term 
positive shifts across Africa. The overall trends point toward 
democratization, economic growth, and development. And USAID 
remains deeply committed to the role we play with the 
Departments of State and Defense in advancing U.S. policy and 
national security objectives.
    Thank you for you continued support of USAID's work in 
Africa. And I look forward to your questions.
    [The prepared statement of Mr. Day follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Engel. Thank you.
    Ms. Lenihan.

  STATEMENT OF MS. MICHELLE LENIHAN, ACTING DEPUTY ASSISTANT 
 SECRETARY OF DEFENSE FOR AFRICAN AFFAIRS, U.S. DEPARTMENT OF 
                            DEFENSE

    Ms. Lenihan. Good morning, Chairman Engel, Ranking Member 
McCaul, and esteemed members of the committee. Thank you for 
inviting me to speak with you today on ``Democracy, 
Development, and Defense: Rebalancing U.S. Foreign Policy with 
Africa'' alongside my colleagues from State and USAID.
    I would also like to thank the women and men of the U.S. 
Department of Defense whose talent, commitment, and sacrifice 
enable us to execute our policies and achieve our objectives in 
Africa and elsewhere. It is an honor to represent them.
    Africa is important to our national interests and will 
become increasingly so in the future. It is a complex security 
environment marked by great-power competition advancements, and 
threats from terrorist groups, violent extremist organizations, 
illicit traffickers, and transnational criminal organizations. 
Major trends, to include population explosion, have the 
possibility of compounding these issues.
    Today's forum provides a key opportunity for us to 
highlight the U.S. Government approach to advancing our foreign 
policy goals and addressing threats, which we do together.
    DoD activities often seize the spotlight, but we are part 
of an integrated effort with State, USAID, and others 
contributing mightily with depth and breadth to effect 
objectives laid out in the 2018 U.S. Strategy for Africa.
    One, promoting prosperity;
    Two, strengthening security;
    And, three, striving for stability.
    Guided also by the National Security Strategy and the 
National Defense Strategy, DoD strives to advance U.S. 
interests in Africa and deny others the ability to harm the 
United States and our partners. We do so primarily through 
partnership. First and foremost, that includes other U.S. 
departments and agencies, as a primary mission of ours is to 
provide military support to diplomacy and development.
    The U.S. response to Cyclone Idai, as Mr. Day noted 
devastated Mozambique and heavily impacted Malawi and Zimbabwe, 
it is a powerful example of DoD providing unique capability, 
via airlift and logistics support, to enable the delivery of 
critical aid in support of USAID's broader efforts.
    We also contribute DoD medical expertise. In East Africa 
and Nigeria, the Walter Reed Army Institute of Research 
supports the PEPFAR initiative through advancement of HIV/AIDS 
research and treatment of 340,000 patients. DoD is also poised 
to provide critical support to U.S. Government personnel 
stationed across the continent to ensure their safety in times 
of crisis. And we apply pressure on terrorist networks to 
create time and space for development and diplomacy efforts to 
take hold.
    Additionally, we focus on our African partners and help 
build their capacity with the goal of developing professional 
forces who respect human rights, adhere to the rule of law, and 
more effectively contribute to stability in Africa. Through 
engagement we have a greater chance of affecting behavior and 
ensuring forces are accountable.
    Further, we work through international partners and 
organizations, such as the African Union and United Nations, 
and we support African-led initiatives, such as the G5 Sahel or 
the Multinational Joint Task Force, to maximize our impact and 
collectively address our shared threats. We employ a variety of 
tools to achieve our security objectives, from Defense 
Institution building to force professionalism, training, 
equipping, assisting, advising and more. Our efforts cover a 
broad spectrum.
    The Department also champions the advancement and inclusion 
of women in security by changing the gender dynamics at the 
table, in the field, and within communities, we can help break 
the cycle of violence and raise societies through the elevation 
of women.
    DoD is committed to implementing the 2017 Women, Peace, and 
Security Act, and helping prevent, mitigate, and resolve 
conflict by increasing women's participation. For example, 
since 2017, our Special Operations Exercise Flintlock in the 
Sahel has included a Women, Peace, and Security seminar to 
highlight the importance of women's leadership and women's 
civil society organizations encountering violent extremist 
organizations.
    DoD maintains a dynamic episodic engagement with an 
enduring impact and light footprint. And we contribute to a 
whole-of-government effort to advance prosperity, security, and 
stability in Africa in support of our national security 
interests.
    Chairman Engel, Ranking Member McCaul, and honorable 
members, thank you again for this opportunity to discuss U.S.-
Africa foreign policy and our integrated U.S. Government 
approach.
    [The prepared statement of Ms. Lenihan follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Engel. Thank you all very much. I will now 
recognize members for 5 minutes each. All time yielded is for 
the purposes of questioning our witnesses. And I will start by 
recognizing myself.
    I want to ask a question about Sudan. The Administration's 
endorsement of fraudulent election results in the Democratic 
Republic of the Congo in January sent a strong message that in 
Africa the United States values regional stability over 
adherence to democratic processes and principles. Looking at 
recent events in Sudan, it is clear that the Transitional 
Military Council, which seized power in mid-April, is trying to 
determine how much power the international community will let 
them retain. This is arguably why negotiations between the 
military and the protestors have stalled.
    Let me ask Ambassador Nagy, can you tell me why civil 
society actors across the continent should believe the United 
States' commitment to the consolidation of democracy after what 
happened in the DRC?
    And can you promise this committee and the people of Sudan 
that the Administration will not undermine a true democratic 
transition in order to cut a deal with the very institutions 
that are responsible for Sudan's current political and economic 
malaise?
    Ambassador.
    Mr. Nagy. Thank you very much.
    Mr. Chairman, the events in Sudan are extremely dynamic. As 
a matter of fact, they are going almost moment by moment as our 
charge just a little while ago was convoked to the foreign 
ministry along with others by the TMC, probably to hear about 
the state of negotiations between the TMC and the umbrella 
group of the opposition. There has been considerable progress 
in the last couple of days. We are very encouraged.
    Tomorrow afternoon we are hosting right here at the State 
Department a Friends of Sudan Conference with delegates coming 
from around the world, including the Africa Union, Ethiopians 
as their chairmanship of IGAD, to make sure that the 
international community keeps pressing for forward momentum on 
this.
    We are very encouraged with the events there. Our charge is 
extremely engaged. The deputy secretary had a phone call with 
the leader of the TMC, General Burhan, a few days ago.
    A few weeks ago, right after the events really unfolded I 
sent our deputy assistant secretary to the region to have 
discussions.
    So, actually, as of right now things are looking up. 
Horrible of the deaths. There appears to be a split within the 
armed forces. So, we are fully engaged. We are engaging with 
our allies and friends. We are also holding discussions, 
obviously, with our Gulf friends to make sure that there is a 
commonality of purpose in moving forward in Sudan.
    Thank you, sir.
    Chairman Engel. Let me ask a question and, Mr. Day, I think 
I will ask it to you about Russia and Africa. There is a 
growing risk that Russia could seize upon the successes of 
disinformation campaigns in the West and redeploy them to other 
parts of the world, including sub-Saharan Africa. Indeed, in 
recent months news has leaked that Russia or Russian-aligned 
entities have attempted to assist the governments of certain 
African countries, mainly Sudan and South Africa, to try to 
spread disinformation or discredit political opposition 
parties.
    So, Mr. Day, let me ask you this. How is Russia's 
increasing use of disinformation a threat to U.S. interests on 
the continent met? Across the U.S. Government what is being 
done to push back against a growing trend of Russian 
aggression, actually, in sub-Saharan Africa?
    Mr. Day. Thank you, Mr. Chairman.
    It is certainly an element and a trend that we are seeing 
across the continent, both Russia and China. We are watching it 
very closely.
    Now, Russia's engagement on the African continent I think 
pales in comparison to China. So, a lot of our thinking has 
focused on ensuring that our African partners are aware of the 
risks of engagement with China, given the debt structure and 
the deals that had been done. But we are certainly concerned 
with disinformation, whether it be in South Africa, or Sudan, 
or anywhere. And so we continue with our African partners to 
ensure that there is a certain level of awareness of the risks 
of those engagements.
    Chairman Engel. Anyone else care to comment? Ambassador.
    Mr. Nagy. Yes, Mr. Chairman. We are weaponizing our 
embassies to confront the Russians. I mean, we all know that 
for the Russians this is nothing new. This is the same type of 
disinformation the Soviet Union conducted back in the 1960's, 
1970's, 1980's. We have to confront them at their source. We 
have to engage with our local interlocutors. Our embassy public 
diplomacy sections have to be aggressive. And we are using the 
Young African Leaders Initiative network, which is several 
hundred thousand bright young Africans, to help us fight this 
disinformation, sir.
    Chairman Engel. Thank you. Let me call on Mr. McCaul. But 
let me also say that next week the House is going to vote on 
the Global Fragility Act, which both Mr. McCaul and I are 
sponsoring, establishing an overreaching policy framework for 
long-term interagency planning.
    And I hope that in your answering some of the other 
questions you can sort of work that in. Thank you.
    Mr. McCaul.
    Mr. McCaul. No. Thank you, Mr. Chairman. It is a great 
segue.
    I was going to ask you just that question. And I, you know, 
when I talk to, when I get the threat briefings, whether it be 
DoD or State, intelligence community, the Sahel seems to be the 
new, to be the new hotspot. In Iraq and Syria we have, I think 
we have tamped down the threat there. It is still alive but it 
has certainly been crushed to a large extent. And it seems that 
the Sahel is the hotspot.
    That is why the Global Fragility Act I think is so 
important. And I just wanted--and I know the national 
strategies you have mentioned, Ms. Lenihan, sort of outlines 
what our bill authorizes. The Relief and Recovery Fund will 
authorize $1 billion over 5 years.
    So, with the three of you here, you are really the three 
principals of the Global Fragility Act, how, how would this 
actually work in action? And I will start with you, Ambassador.
    Mr. Nagy. Yes, sir, Ranking Member.
    I have to say that from our point of view we are absolutely 
delighted with the cooperation that we have between the three 
of us. We work very closely together. We meet constantly 
discussing policies. Of course, at times we see things 
differently, but overall we always have the same goal.
    There are some examples of this. The Trans-Sahara 
Counterterrorism Partnership where we are having meetings next 
week amongst all agencies involved is an ideal. And that is 
exactly how we need to work in situations like the Sahel 
because it is, it is multi-threat, it is historical, it is 
cultural, there are so many players involved, including 
Europeans and the United Nations, so the United States of 
America has to have a single force.
    And as has been evident, situation after situation in 
Africa we can fight hard, eradicate terrorism, but if there is 
nothing to fill that space, all you end up with then is after a 
few years even a worse group of terrorists.
    Mr. McCaul. Uh-huh.
    Mr. Nagy. Another partnership which is absolutely essential 
in that situation are the countries involved. And that is where 
also our diplomacy really matters, because out of the five, 
six, seven countries you can have six countries very strongly 
together. All it takes is one, which is not heavily involved 
and responsible, to keep spreading what I call a cancer.
    So, from our point of view, bravo and thank you, sir.
    Mr. McCaul. Right. And the Chairman and I introduced the 
Trans-Sahara Partnership Act. It will be on the floor next 
week, I believe. So that is very good.
    Mr. Day?
    Mr. Day. I could not agree more with the assistant 
secretary. You know, from USAID's perspective we need space to 
operate. And when we can gain access to certain areas it has 
been proven that our programs can be effective, whether it is 
food security or education, some of our resilience programming 
in health, good governance, all of those are incredibly 
important to building kind of a holistic approach to this. But 
if we do not have access to it then it makes it a lot more 
difficult. Means our programs are going to be a lot more 
limited.
    We can do a tremendous amount with our Office of Transition 
Initiatives, which we are working in northen Burkina Faso and 
Mali, and some areas in Niger, in Tillaberi area. But it is 
incredibly important that we have great coordination amongst 
the various agencies because that gives us the space to 
operate. Because these programs will work, but we just need to 
have the space to operate. Similar in Somalia and several other 
places as well.
    Mr. McCaul. Ms. Lenihan.
    Ms. Lenihan. Thank you, Ranking Member.
    I agree with my colleagues on the panel, fragility is a 
serious concern within Africa. From a defense standpoint you 
need to get at the underlying issues rather than just address 
the security effects. And for that matter, you have to work on 
development, you have to work on diplomacy. We take steps in 
order to create time and space in order to do that and work in 
support of our interagency partners in order to do so.
    So, any attempts to address underlying issues and causes 
certainly will have spillover effects on improving security and 
reducing the need for it.
    Mr. McCaul. Thank you. My time is kind of limited but I do 
want to address China real quickly.
    The chairman mentioned in his opening statement Djibouti. 
The idea that they have a military base right next to ours in 
Djibouti is just, to me, unacceptable. In this One Belt, One 
Road they are literally, they are taking over African nations 
without a shot fired, in my judgment, over-leveraging them, 
bringing in their workers, extracting natural resources.
    I met with the Conservation Group yesterday. The Chinese 
are coming in with AK-47s and harvesting, you know, rhinos.
    So, it just seems to me we are not com--we are not there 
and we are not competing in Africa. And if we are not there and 
we are not competing, you know, American businesses are not 
competing, we lose.
    Ambassador, you seem to want to respond to that.
    Mr. Nagy. Up to now maybe not, but oh my gosh, we are 
getting ready to fire back at full force. Because we are going 
to do this strategically. We, again, I would hate to use the 
word ``weaponize'' but we are weaponizing our embassies to 
confront the Chinese across a whole range of issues, and most 
prominently the commercial one. Because, as you said, sir, the 
Africans tell us over and over and over again they would much 
rather deal with U.S. businesses than the Chinese. But they 
have been dealing with the Chinese because the Americans have 
not been at the door.
    But we are going to change that. I mean, I could go on 
forever on this. But I just promise you that we are seized, the 
secretary is seized, and you are going to see a very aggressive 
posture in so many different fields. Every time I go to Africa 
I get in trouble with the Chinese for my speeches to where the 
Chinese Ambassador in Uganda had to do a full page op-ed in 
response to the things I said because I, I say the truth about 
what we are doing and what they are doing.
    Thank you, sir.
    Mr. McCaul. Let me say, Mr. Chairman, in closing, it has 
been a very slow creep and very deceptive, but I think people 
are waking up to what is happening now.
    And I yield back.
    Chairman Engel. Thank you, Mr. McCaul.
    It is now my pleasure to call on the chair of the Africa 
Subcommittee of this committee, Ms. Bass.
    Ms. Bass. Thank you. Thank you, Mr. Chair.
    And I appreciate the ranking member in saying that people 
are beginning to wake up because, you know, whenever I hear 
about the Chinese or the Russians in Africa, you know, my 
thought is ``Where are we?'' And, you know, it is time for us 
to step up. And so I appreciate the assistant secretary saying 
that you are going to come full force. I would love to hear the 
details as to what that means.
    And then, of course, what concerns me about it is is that, 
and I know you are genuine because I know you, but then, you 
know, we have a 66 percent decrease in the budget. So, I do not 
know how you go full force and have your budget, you know, 
decrease so much. So, perhaps you can clue me in on the secret 
as to how you are going to do that.
    And I appreciate Ms. Lenihan talking about addressing the 
root causes because I am concerned about our imbalance in that 
we put a lot more emphasis. Obviously, we put emphasis on 
security but we all recognize that if you address the root 
causes you are addressing, you know, the security situation as 
well.
    So, perhaps if you would not mind, maybe Assistant 
Secretary, you could give me some top lines as to how it will 
be full force.
    I also want to ask about Cameroon and Ethiopia. So, I do 
not want to run out of time. Go ahead.
    Mr. Nagy. Thank you very much, Congresswoman.
    Very quickly, I have worked for seven different 
administrations, different levels of budgets. I have had some 
fat ones and thin ones. All I can promise you that I will do 
the absolute best I can with whatever funds are made available.
    On China specifically, we are having individual embassy and 
country strategies. We are putting deal teams together, from 
the largest embassies to the smallest ones, to do both sides of 
this: support U.S. businesses, work with the countries to 
improve their business environment which will attract U.S. 
businesses. Because all my discussions with U.S. business they 
say, we want to go to Africa but this is what is stopping us.
    So, again, that is a full force press.
    And also to make clear to people, you know, every time 
China builds a 50,000-seat stadium they get full page coverage, 
front page. What is not said, that there would not be people to 
be in that stadium if not for U.S. Government's billions of 
dollars saving millions of Africans from HIV/AIDS. So, so we 
need to make sure that both sides of the story is told on this.
    And I will stop there for you.
    Ms. Bass. Sure. And I know with my ranking member over 
there that we would love for you to come to the subcommittee, 
and perhaps we could drill down because we want to figure out 
how to be, how to be supportive.
    Ms. Lenihan, would you like to respond to what you were 
saying in terms of addressing root causes but yet our focus is 
on security?
    Ms. Lenihan. Thank you, Representative.
    I do believe that we need to address root causes. But I 
also know from Defense we----
    Chairman Engel. Ms. Lenihan, can you pull the microphone 
just a little closer to your mouth.
    Ms. Lenihan. Thank you. Yes, I do believe that we need to 
address root causes in Africa, which my colleagues here from 
USAID and State do a heroic job of doing so, along with the 
many people out in the field and within the department in order 
to do so.
    Additionally, at the State Department--I am sorry, 
additionally at the Department of Defense we work on 
institution building, which I also believe addresses some of 
the root causes in order to create those critical foundations 
and promote governance across the Sahel. Of note, there is the 
Security Governance Initiative which is focused on addressing 
cross-cutting security sector improvements to develop 
governance and build institutions. Two countries, Mali and 
Niger are part of that.
    Ms. Bass. Thank you. And I am sorry to cut you off but I 
know I am going to run out of time.
    So, I wanted to ask in terms of the crisis in the Cameroon 
in the Anglophone region, we know it has been worsening over 
the last 18 months. And so I wanted to know what we are doing 
along with our diplomatic partners to encourage negotiation?
    Mr. Nagy. Thank you very much.
    Very quickly, Cameroon continues to be one of three 
countries that grieves my heart every night. I sat with 
President Biya a couple of months----
    Ms. Bass. What are the other two?
    Mr. Nagy. Somalia and South Sudan.
    Ms. Bass. Oh, OK.
    Mr. Nagy. I sat with President Biya a couple of months ago 
in Cameroon and we told--he told me, you know, yes, we are 
interested in dialog. And, but the government has done nothing 
to show for it. They have set up some Potemkin Institutions 
which have not done anything.
    We continue to press forward with our, our allies. We had 
an Arrias at the United Nations----
    Ms. Bass. I am sorry, I am going to run out. This is just 
terrible, 5 minutes. But I have to get to Ethiopia.
    Mr. Nagy. OK.
    Ms. Bass. So, you know, give me----
    Mr. Nagy. One best news on Ethiopia, yesterday if you had 
been at the State Department for our Partnership Forum on 
Ethiopia and seen the hundreds and hundreds of peoples there 
from the diaspora, from U.S. business,----
    Ms. Bass. Oh.
    Mr. Nagy [continuing]. And from the Ethiopian Government, 
your heart would have melted.
    I kicked it off and I was just delighted because I knew we 
would get to this point. Going forward we are finding ways to 
support Ethiopia. But what they need now is jobs, jobs, jobs. 
And that will be brought by the business investment. So, we 
will do our best to promote that.
    Thank you very much.
    Ms. Bass. Good. Thank you.
    Are you going to let me continue on, Mr. Chair?
    Chairman Engel. Thank you.
    Ms. Bass. Oh, never mind.
    Chairman Engel. Ms. Bass, yes, I will give you one extra 
minute. See that, I offered it and she did not take it. So I 
have got the, I have the best of both worlds.
    Mr. Smith.
    Mr. Smith. Thank you very much, Mr. Chairman. Welcome to 
our distinguished panelists. Thank you for your work.
    You know, I have been here since 1981. Every single 
Presidential budget that has come up here is dead on arrival. 
President Obama cut tuberculosis by 20 percent; we put it back.
    He cut, neglected tropical diseases by 20 percent; we put 
it back, and then some.
    So, when I see a budget come up that has draconian cuts, it 
is in a way not worth the paper it is printed on. But I am not 
sure why OMB insists on doing that each and every year. But 
every president has done that. Thankfully, Congress is a check 
and we do, I think, get it right most of the time.
    Let me just say a couple of things. I think that we are 
balanced in many ways. Of course, there is always room for 
improvement. Much of what started with President Bush, PEPFAR 
for example, I was the prime author of the reauthorization for 
5 years. That was signed by President Trump.
    We are talking about $30 billion approximately over 5 years 
for tuberculosis, for HIV/AIDS, and look at the progress that 
has been made through successive administrations. Beginning 
with Bush, his idea, one of his greatest legacies ever, 17 
million Africans saved because of it. Mother to child 
transmission saved about 2 million or so, and maybe more.
    And then you have the situation of about, what is it, 13 
high-HIV burden countries who are on pace to control their HIV/
AIDS pandemic by 2020 according to Ambassador Deborah Birx.
    So, there is real progress being made. And as you said, Mr. 
Ambassador, they may build the stadium--they being the 
Chinese--which is high gloss and highly visible, but we are 
saving lives, and you are walking point saving those lives. And 
I do not think that should be in any way trivialized or in any 
way denigrated. It is fantastic what you are doing.
    So, there has been continuity from administration to 
administration, and it continues. I cannot think of a better 
person to be running our USAID than Mark Green. I got along 
great, worked great with Dr. Shah, who I thought was a great 
USAID administrator, and the two that followed, including the 
interim. And now that baton has been given to a very--so I do 
hope that, you know, the press and others when they walk away, 
so much is happening on the ground.
    Ebola if you would elaborate quickly on what is happening 
in D.R. Congo on Ebola, as the situation is very, very 
discouraging. But you can fill us in on that.
    Karen Bass and I visited Ethiopia last year and met with 
President Abiy. And we are very encouraged by his release of 
political prisoners. You might want to elaborate very quickly 
on that.
    And then Turkey. You know, we talk about China. I chaired 
several hearings on China's influence on what is happening in 
Africa, their fleecing of their minerals, their wood, their 
other, oil, and their debt now, which is a huge problem. You 
may want to speak to that quickly.
    Trafficking, we are doing wonderful work, I think, at the 
trafficking office and in our embassies on combating that 
hideous scourge of modern day slavery. Thank you for that. I do 
not think that gets enough focus or coverage.
    And I would respectfully ask that this committee mark up a 
bill that I have been trying to get passed for some time, the 
End Neglected Tropical Disease Act, which Karen Bass and I co-
authored, and Gregory Meeks, bipartisan bill. A billion people 
plus walking around with worms and parasites. Very low cost 
interventions. We are spending $100 million to combat that. We 
need to get a mentality like PEPFAR to fight that as never 
before. Because co-infections and opportunistic infections 
obviously thrive on the weakness when somebody is walking 
around with worms in their intestines, over a billion people.
    Mr. Chairman, I would ask that we could bring that up as 
soon as possible, respectfully.
    Mr. Day. Perhaps I will just speak very quickly on, on 
Ebola. We are deeply concerned. We should all be concerned 
about the Ebola outbreak in eastern DRC. It is not contained 
and it is not under control. This is no longer a public health 
crisis, it is a political challenge as well as a development 
challenge.
    There are layers of complexity that are occurring 
simultaneously. We have extremist organizations that are 
working within the areas, there are community militias, there 
is deep community distrust. A whole range of complexities in 
terms of the operating balance.
    So, our priorities are to, first, contain the outbreak, 
control the outbreak and, ultimately, end the outbreak. Now, we 
are working in kind of four primary areas of approach:
    One is to ensure we have the most effective vaccine 
strategy possible;
    Two is to address the community distrust issues via 
community engagement programs, but then also making sure that 
we are coordinated with the DRC political structure, including 
President Tshisekedi;
    Working with the international organizations, including the 
W--the World Health Organization including, as well as the U.S. 
Government coordination, which is our primary partner is the 
Centers for Disease Control and Prevention, CDC.
    And then, of course, we have got to work on preparedness of 
the ring countries, Rwanda, Burundi, South Sudan, and Uganda.
    So, we need a reset on this, and we are working on a reset 
plan because we have seen a real increase in the number of 
cases over the last month. So, it is a concerning issue.
    Mr. Smith. Mr. Nagy?
    Mr. Nagy. In Ethiopia, sir, yes, Prime Minister Abiy 
continues to make dramatic, dramatic reforms, very focused on 
the elections, working with the opposition to make sure that 
the election timetable is right.
    There are fissures, as we all know, in Ethiopia which have 
been under the surface for decades which are going to be coming 
out. And it is a troubling situation for him. So far everything 
is well under control.
    And, of course, there are serious opposition to his reforms 
within certain segments of the Ethiopian Government. He needs 
support because he is doing one of the most dramatic things 
possible is converting Ethiopia into a country that will be 
based on institutions, which I think is very, very dramatic. 
And we are doing our best to help him with that. We are sending 
technocrats at the institutional level. But more than anything, 
as I mentioned, he really needs jobs, jobs, jobs for his young 
people, sir.
    Mr. Smith. You do talk about China a lot. I know my time is 
up, but if you could, for the record especially, speak to what 
Turkey is doing vis-a-vis the Horn of Africa, because it is a 
very serious problem?
    Mr. Nagy. Yes, sir.
    Chairman Engel. If I could ask you to keep the answer short 
because we have to call on other people. Thank you.
    Mr. Nagy. Very quickly. Yes, the Turks are very involved. 
For business purposes they are also involved in the airport on 
Mogadishu, and in doing some, some training of the Somali 
National Army. And we would like to see what the effectiveness 
is. And we would like to cooperate and coordinate closer.
    Mr. Smith. Thank you, Mr. Chairman.
    Chairman Engel. All right. Thank you very much, Mr. Smith.
    Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    We have touched on a lot of important issues: the 
empowerment of women; effects from China, Russia. But I want to 
touch on another one. We did talk about the Sahel. We talked 
about the complex challenges that are there. But there is a 
threat multiplier that concerns me, and that is the effect of 
climate change as a threat multiplier.
    They really intensify a lot of those problems, the 
instability that is there, the effect of land degradation, 
food, food insecurity, and resource distribution. They are a 
source of--they are incubators, it is an incubator of conflict 
as well from a stability and security standpoint. So, I want to 
know what we have been doing on that to try and deal with 
adaptation to the climate change, what resources have, how we 
would prioritize this important issue.
    Mr. Day. Thank you, Congressman.
    I agree it is absolutely a critical issue. USAID's approach 
primarily is to focus on the consequences of a changing climate 
and extreme weather events. So, if we can build more resistant 
local communities, then they are going to be much more capable 
of addressing many of those challenge. So, that is everything 
from food security to resilience programming, which we have 
done all across, all across the continent, particularly on the 
Horn of Africa and Sahel.
    So, a lot of our programming is engaging the local 
community to ensure that there is local governance engagement 
but also working with everything from local farmers to 
educational institutions to ensure that food security and their 
ability to be resilient in new types of environments is 
increased and maintained.
    Mr. Keating. Ms. Lenihan, could you comment more on the 
security and military side of that from your perspective, too? 
Because climate change really impacts that as well.
    Ms. Lenihan. Thank you, Representative.
    There are certainly some environmental effects occurring in 
the Sahel with the increased tension between, say, farmers and 
herders over absences of water and just concern for resources.
    But I would also like to highlight that our AFRICOM is 
doing primarily in the logistics shop, in the J4, in order to 
work with partners to improve their abilities. For instance, in 
Burkina Faso there is a program in order to work on water 
sanitation and hygiene to make the most of what they are doing. 
Also, through some of their efforts they are helping bring the 
military and that military expertise into a larger whole 
government effort in order to address some of those climate 
issues.
    Mr. Keating. Yes. I was struck recently, I was in part of 
the Munich Security Conference hearings and I was struck by how 
much discussion was going on about EU's partnership in Africa. 
Can you comment on that?
    And one of my beliefs is we could multiply our efforts, 
too, by working closer with those European efforts since we 
share so many of the same values and concerns. Can't we do a 
better job of working together? Can you comment on what they 
are doing, how we can work with them in a concerted way to 
really be more effective, particularly when we are dealing with 
the Chinese and the Russians trying to deal with that area?
    Mr. Nagy. I will be happy to talk on the political side 
because we have very close coordination with the G7 which is 
Europeans plus Japan. We meet on a regular basis to compare, 
coordinate our policies across Africa.
    At the country level, most of our Ambassadors belong to 
what are called local donor groups where they sit locally, 
again, mostly with EU and other major donors, to make sure that 
there is as least as possible duplication of effort on their 
programs. Having sat in donor groups myself, it is astounding 
what you can find out at the local level because the capitals 
often do not talk to each other. So, you can really use your 
resources in a much wiser way.
    Mr. Keating. Yes, yes. But also, you know, avoiding 
duplication.
    What about policy of consolidating those efforts and 
concentrating those efforts more? Is there discussions on that? 
I just think there is a tremendous opportunity for us.
    Mr. Nagy. There, I do know there is in certain 
circumstances. For example, with the dramatic changes in 
Ethiopia that is one of the things that our like-minded 
missions did was to get together to see how quickly each could 
respond to the various needs of the Ethiopian Government.
    One big example is one thing they needed was direct budget 
support. The United States of America does not write checks in 
most instances and just gives them to, to governments. The 
Europeans were able to do that to a certain extent.
    Mr. Keating. Is part of this, though, also inoculating some 
of the countries, you mentioned Ethiopia, about what China is 
doing with these type of loans, these, you know----
    Mr. Nagy. At the last G7 meeting, sir, I can assure that 
China was a very hot topic of discussion.
    Mr. Keating. All right.
    Ms. Lenihan. And, Representative, I would add from the 
security standpoint that we work quite closely with our 
European counterparts and colleagues. One, the European Union 
has training missions in multiple areas of Africa which 
complement our efforts.
    Additionally, we provide support to the French for CT 
operations in the Sahel under the authorities granted by 
Congress which has a force multiplying effect.
    Further, in Somalia one of DoD's primary roles in actually 
as a coordination facilitator. So, we have something called a 
Mogadishu Coordination Cell headed by a one-star which serves 
to actually coordinate all of the international defense 
capabilities in order to reduce duplication and ensure greater 
effectiveness.
    Chairman Engel. The gentleman----
    Mr. Keating. Thank you very much. I think we could do the 
same type of thing in the economics here that we are in the 
security and defense field in that respect, you know, working 
together as a multiplier.
    I yield back. Thank you, Mr. Chairman.
    Chairman Engel. Thank you. Thank you, Mr. Keating.
    Mr. Yoho.
    Mr. Yoho. Thank you, Mr. Chairman. And thank you all for 
being here.
    I do not know where to start, there is so much going on. 
But I hear the same thing we have heard over for the last 3 
years. And I am glad China has come to the forefront of what 
they are doing around the world and that people are paying 
attention to that. And you know what, China is going to 
continue to do what they have been doing. You know why? Because 
they can. They have the cash to do what they are doing.
    We have a space program in the 1960's when we had a 
mandatory spending was about 30 percent, discretionary was 70. 
We could do a space program. We could do inter-State programs 
because we had the cash. China can do that.
    And this is a call-out to this body, not just the Foreign 
Affairs Committee but to Congress in general, the House and the 
Senate. If we do not get our fiscal house in order this is 
going to continue and China is going to eat our lunch about it.
    And the other thing that China does is China provides no 
string financing, unlike western countries, with no conditions 
on fine points such as human rights, clean governance, the 
things that we believe in as we try to promote democracies.
    I have not been a big fan of promoting democracies. I think 
our focus should be on stable governments. If you have stable 
governments you have better governance, and then you can start 
bringing an economy this way. And I think we just really need 
to have an honest conversation in here about our fiscal 
irresponsibility as a body. And it is tragic that we are not 
doing that.
    Moving on, Africa still faces tremendous electricity access 
challenges. China is heavily engaged in the African power 
sector with investments of 13 billion between 2010 and 2015. Do 
you believe that the U.S.-based programs like Power Africa are 
competitive enough against China increasing engagement on the 
continent specifically in energy and development, the 
development sphere?
    Mr. Day. Thank you, Congressman.
    You know, I think Power Africa really has been a successful 
model. And I think we have learned a lot from our experience in 
Power Africa.
    Power Africa has facilitated over 120 transactions, almost 
$20 billion. And there are 58 million people on the African 
continent now who have electricity who did not have that before 
the initiative started.
    I think if you wrap that into a larger package, as we roll 
out the more details about the Prosper Africa initiative, which 
will be kind of multi-sectoral, an effort to really coordinate 
all of the U.S. Government toolkit to support private sector 
engagement on the African continent, then I think we can get to 
the scales I think you are talking about there.
    Yes, we have had some real success on the power side with 
Power Africa, but Prosper Africa is an umbrella effort to 
really support American businesses on the African continent. 
And this is us coming to the table.
    Mr. Yoho. And I appreciate your bringing that up.
    And you said something in the beginning that I feel with: 
you should work yourself out of a job.
    Mr. Day. That is right.
    Mr. Yoho. If we are successful in our foreign aid policies, 
you know, you have passed the baton off to that country because 
they have become self-sufficient.
    The bulk of the money that we put in there, sub-Saharan 
Africa has generally seen between 25 percent of the total U.S. 
bilateral aid, the bulk of which supports health programs.
    We were in the Congo with Chairman Royce and Chairman Engel 
a couple years ago and we were at the cabinet meeting with 
President Kabila who could not find the time to meet with 
America, but his cabinet did. And this was a rhetorical 
question I asked, but it was shocking on how rapid the response 
was. I asked them, What are you doing for social programs?
    And he goes, What do you mean?
    I said, Health, education, you know, housing, you know, 
hunger.
    He goes, We have you.
    You know, that is not sustainable. We have got to work with 
the countries like the Sudan and Ethiopia. How do you find 
countries willing to come along? And the ones that are, do we 
really run and push a lot of effort with these people to build 
their countries and government?
    Mr. Day. Sure. Thank you for the question.
    This is something that we are having many, many discussions 
about. And the administrator has laid out a vision which we 
call a Journey to Self-Reliance, which is really looking at the 
level of commitment and the level of capacity in our host 
country, host country partners.
    And those countries that have not demonstrated a 
significant level of commitment, our relationship will 
ultimately, from a development perspective will ultimately 
shift.
    Mr. Yoho. I have got to add one more question in here.
    Mr. Day. Yes.
    Mr. Yoho. If Congress, meaning the House and the Senate, 
fails to fund the BUILD Act or the U.S. International 
Development Finance Corporation, as intended by Congress, and 
the administrators cannot prepare--allowing the administrators 
not to prepare for the massive roll-out that everybody is 
anticipating for October 2019, how detrimental will it be to 
our foreign policies in the future?
    Mr. Day. It will be significant. We are very excited about 
the DFC coming operational on October 1. From a USAID 
perspective this is an incredibly important tool to engage the 
private sector on the African continent.
    Mr. Yoho. Ambassador Nagy?
    Mr. Nagy. Absolutely essential. That is one tool that I 
have been pointing out in all my visits around the continent 
and in speeches to U.S. business is they are so excited about 
that. Because I cannot order U.S. business people to go to 
Africa. That is why I tell African governments put in place a 
business environment that will welcome U.S. business because 
they are eager to go. But the BUILD Act will be very important.
    Mr. Yoho. Chairman.
    Ms. Bass [presiding]. Thank you.
    Mr. Bera.
    Mr. Bera. Thank you, Madam Chairwoman.
    I am glad my colleague from Florida, Mr. Yoho, brought up 
implementation of the bill. Back in as chair of the 
Subcommittee on Oversight we want to make sure it is 
implemented and rolled out in the most effective way. So, we 
will be looking at that and making sure that implementation 
gives you the full tools necessary.
    You know, I was in west Africa last summer. I actually 
wanted--I am a doctor by training, with a public health 
background--I actually wanted to go to the western part of the 
DRC when that outbreak is going on. But through risk tolerance 
they would not let me go there, so we went to Sierra Leone 
instead to kind of get a sense of, you know, what we learned 
from the 2014 outbreak.
    And on that category of risk tolerance, you know, the one 
thing I worry about--and again I am thinking about this as a 
doctor and public health specialist--Mr. Day, you absolutely 
pointed out what is happening in the eastern Congo is getting 
worse, and it is rapidly getting worse. And, you know, talking 
to health workers who, and our workers from CDC, who have been 
in country recently or currently are in country, it is 
difficult to address this without actually being at the 
epicenter and providing supervision.
    And, you know, I guess my question maybe to Ambassador Nagy 
would be what is that risk? I do not want to put our personnel 
in harm's way but I also understand if we cannot get close 
enough to the epicenter, maybe going in and out, this rapidly 
can get out of control.
    And maybe for Ms. Lenihan, is there a role for our, you 
know, outside of diplomatic security, additional DoD security, 
et cetera? I do not know, maybe Ambassador Nagy?
    Mr. Nagy. Yes, sir. The risk is something we have looked at 
very, very carefully and had our experts look at it to see 
where effectively we can be stationed, for example, to do the 
most that we can. Some NGO's have a much higher risk tolerance 
than we do.
    Our Ambassador, if we let him, would have a much, much, 
much higher risk tolerance. He is that kind of a person. So we 
have to literally hold him back. Because everybody is so 
keenly, keenly just intent to put a stop to this because the 
dangers are immense, you know, going off in different 
directions, crossing borders of countries that could not be 
able to deal with it.
    So, we are extremely seized with this. But the risk for 
American personnel definitely takes priority.
    Thank you, sir.
    Mr. Bera. Mr. Day?
    Mr. Day. Sure. And I would just that I am glad you 
mentioned kind of the short-term capabilities of being able to 
get into some of the more hotspots. The primary population 
centers have been Beni, Butembo, and Katwa. Our head of the 
Democracy Conflict and Humanitarian Assistance, Admiral Ziemer, 
was just there last week. So, we are able to kind of get in on 
short term and to do quick assessments.
    But the WHO is actively working in many of those areas, so 
they have roughly 400 or so personnel that are there. But I 
agree with the assistant secretary, the operating environment 
right now is not conducive for long-term USG.
    Mr. Bera. And I appreciate that. And, you know, from the 
folks that have been in country that we have been interacting 
with they do think there is that possibility of sending some of 
our folks in for a day or two at a time and pulling them out so 
they can oversee, you know, how the workers that are in these 
hotspots are actually doing, give them advice, et cetera. But, 
you know, and maybe it is that in and out darting of, you know, 
providing supervision, not, not idea but maybe what we have to 
do.
    Ambassador Nagy, you touched on something that I hear 
increasingly from our foreign service officers and our 
Ambassadors around the world. Kind of in this post-Benghazi 
environment of diplomatic security and embassy security we have 
put a lot of our personnel behind walls and so forth. And these 
men and women, who are truly patriotic out there, understanding 
that there is risk, you know, I almost feel like we have 
overcorrected. Because where we used to be out with the people, 
interacting on a daily basis, now you see the Chinese and 
others.
    And I hate to see us building these embassies with big 
walls. And our men and women want to be out there. And, again, 
I do not know the right answer of risk tolerance, but I want to 
make sure we have not overcorrected and hurt our diplomats and 
our development workers' ability to be most effective. And 
maybe if you can comment on that
    Mr. Nagy. Sir, having a son who is in diplomatic security, 
he and I have argued about this a lot. Because I am the kind 
that wants to be out there. When I was an ambassador, you know, 
going to church there was only one road, so that was the only 
choice I had. But each of our Ambassadors takes a look at this 
very carefully.
    They are very competent, very professional, they adapt 
circumstances sometimes based on the day of the week. I, 
personally, am very comfortable that we have found that 
compromise.
    Mr. Bera. Yes.
    Mr. Nagy. And from an oversight perspective that is 
certainly something that we are going to be looking into 
working with our diplomatic security personnel, but also making 
sure that our men and women that are out there representing our 
values and our country on a daily basis----
    Mr. Bera. Yes.
    Mr. Nagy [continuing]. You know, can do their jobs as well.
    Mr. Bera. Thank you.
    Ms. Bass. Before I go to Mr. Kinzinger, I did want to ask 
Ms. Lenihan a followup question from Mr. Yoho, which is the 
same question he posed to the other witnesses.
    If the BUILD Act is not funded completely what will the 
impact be from your perspective of DoD?
    Ms. Lenihan. Thank you for your question.
    I defer to my colleagues here who are focused, more closely 
focused on the BUILD Act.
    Ms. Bass. Thank you.
    Mr. Kinzinger. Well, thank the Chairman for yielding. And 
thank you all for being here. I very much appreciate it.
    You know, post-conflict stabilization spans years. 
Democracy building takes longer. And sometimes in our society 
we like to kind of see it all done immediately and we forget 
our own history that, you know, we had a revolution, and then a 
civil war, and a lot of division. And some people think that we 
are divided today. But compared to the past, it is nothing.
    And so the deteriorating situation in Libya I think is 
proof of the time it takes. While the international community 
had high hopes for the 2011 transition plan, we have seen anti-
government militias gain control of key resources and suffocate 
the U.N.-backed government. And I am concerned with the current 
stability of Libya, as well as the country's long-term health.
    As a result of the ongoing hostilities between the LNA and 
the U.N.-backed government of national accord, we have seen the 
creation of the perfect environment where terrorists groups can 
flourish.
    So, Ms. Lenihan, how has the fighting impacted U.S. 
operations in combating the threat of ISIS and other terror 
groups in the region? And, also, have we seen an uptick of ISIS 
fighters fleeing Syria and Iraq to regions in Libya?
    Ms. Lenihan. Thank you, sir.
    We agree the situation in Libya is grave. We have concerns 
about the ongoing----
    Ms. Bass. Speak up just a little.
    Ms. Lenihan. Of course. We agree with the concerns about 
the situation in Libya and ongoing instability as far as the 
impacts, as well as the impacts on other areas.
    We are in support from the Department of Defense on a 
political solution that is truly the way forward in order to 
have long-term stability in Libya. We currently do not have 
forces in Libya conducting CT operations.
    And as far as foreign terrorist fighters, we have not seen 
a serious uptick in return based on advances in the Middle 
East, but certainly that is something that we will continue to 
follow closely out of concerns that that could occur.
    Mr. Kinzinger. And could you talk about Egypt's role in 
combating terror on that shared border?
    Ms. Lenihan. Sir, Egypt falls outside of my portfolio. So, 
with all due respect, I will defer.
    Mr. Kinzinger. Any of you guys? Ambassador, same?
    So, let me transition then. Through the Belt and Road 
Initiative China made the geo-strategically significant country 
of Djibouti one of their first major initiatives. Through their 
debt trap diplomacy, a Chinese-owned company has taken control 
of the container terminal and the adjoining multi-purpose cargo 
facility.
    What concerns me is that six miles away is America's 
largest military base in Africa which is supplied through the 
now Chinese-operated port. Additionally, the PLA base in 
Djibouti located adjacent to the port has used military grade 
lasers to interfere with American C-130's flying into the base.
    Ms. Lenihan, how does the presence of a Chinese military 
base affect American operations across Africa and the Middle 
East?
    Ms. Lenihan. Yes, sir. Thankful for raising the question.
    In alignment with our national defense strategy China is a 
strategic concern for the Department of Defense. Certainly with 
the advent of the Chinese base in close proximity to our own 
base at Camp Lemonnier it raised some certain complications. We 
have to be concerned about safety and de-confliction and create 
mechanisms in order to manage that.
    As we have noted before, China is an integral concern on 
the continent, and so what we continue to do is promote our 
model to ensure that we remain the preferred partner with our 
African partners and then also continue to eliminate some of 
the concerns about working with China overall.
    Mr. Kinzinger. And let's say we reduce our role in there in 
Africa in general, or in that region, how would the Chinese 
react to that? And I will ask that also of the Ambassador.
    Ms. Lenihan. Sir, we maintain engagement from a DoD 
standpoint. We have a robust activity of specific cooperation 
across the region to include within the Horn of Africa and in 
Djibouti. So----
    Mr. Kinzinger. OK. I will----
    Ms. Lenihan [continuing]. We will continue that.
    Mr. Kinzinger. Thank you.
    Ambassador, if you could.
    Mr. Nagy. Yes, sir. Thankfully, we are not reducing our 
role in Africa because the Chinese would be delighted if we 
reduced our role in Africa. I want to dramatically increase our 
role, especially on the business side. I want U.S. business 
people to be running over the Chinese business people instead 
of the other way around.
    Mr. Kinzinger. And with the 50 seconds left do you want to 
more generally kind of address China in Africa as a presence?
    Mr. Nagy. Absolutely. It is they are a strategic 
competitor. For decades U.S. business people have not been at 
the door. And when the door was opened that is why the African 
governments have been doing deals with the Chinese.
    You know, we went through a debt restructuring back in the 
1980's and we forgave a lot of debt. And, hopefully, we do not 
have to get to that again where African governments will be 
looking to see how they can get out from under Chinese debt. 
You know, to trade one debt trap for another would be 
devastating for our African friends.
    And getting U.S. businesses you do not--you reduce 
corruption, you increase good governance, you have greater 
rights for women, you care more about the environment, and on 
and on and on. So, there are so many pluses. And there would be 
so many minuses with the U.S. ceding that territory, sir.
    Mr. Kinzinger. And I was pleased with getting the Eximbank 
up and running. So, I yield back.
    Ms. Bass. Representative Castro.
    Mr. Castro. Thank you, Chairwoman. And thank you all for 
your testimony today. It is great to see that we are having a 
full committee hearing on Africa in the Foreign Affairs 
Committee.
    For the longest time, certain parts of the world, including 
Africa, have gotten the out of sigh, out of mind treatment. 
There are things that happen in Africa that if they happened in 
other parts of the world would get much more attention.
    We see once in a while cases where 50 people or 100 people 
are killed or are victims of a natural disaster, and that is a 
blip on American news media.
    And so let me ask you, there was some conversation here 
about making sure some of the countries, after we have infused 
development moneys into them for years, are able to get back on 
their feet or get on their feet and establish their own 
economic strength. What are we doing to help those economies 
and their businesses? I know what we are doing to help U.S. 
businesses, what are we doing to help African businesses build 
their own capacity and export and become successful?
    Mr. Day. Thank you, Congressman.
    You know, USAID has been active on the African continent 
for six decades. And this has been a big part of our area of 
focus for pretty much that entire time. Many of these countries 
have been able to take advantage of the Africa Growth and 
Opportunity Act. And so, USAID has worked with a lot of African 
firms to prepare them and to build capacity so that they can 
actually export their goods via AGOA.
    Now, we, USAID, works through our Trade and Investment 
Hubs. And we have three Trade and Investment Hubs on the 
continent. And so a lot of firms will come to those Trade and 
Investment Hubs. We will work with them, build those capacities 
and then make business linkages back to the U.S. if there is 
export opportunities for them.
    Mr. Castro. Sure.
    Mr. Nagy. Yes, sir. I think AGOA is one of those examples 
of multi-political projects that have ben supported by both 
parties. Now the United States is strongly supporting the 
continent-wide Free Trade Agreement which the AU has been 
sponsoring. It looks like it will be coming into force.
    And on the side of that we would very much like to have a 
very first Free Trade Agreement with an African country. We 
only have one Free Trade Agreement with Africa, and that is 
with Morocco. We would very much like to have a sub-Saharan one 
exactly to meet those interests, sir.
    Mr. Castro. Sure. And I would hope that we would do 
something to help them export to the United States and export 
to other countries.
    Again, we want our American businesses to be successful. 
But if it is truly, if our development is truly about having 
countries get up on their own feet, you have also got to help 
their own economic infrastructure.
    Let me ask you, Mr. Day, what has happened to the USAID 
budget with respect to Africa in the last few years?
    Mr. Day. The budget----
    Mr. Castro. Has it gone up, or down, or flatlined?
    Mr. Day. I think there has been a fluctuation, as always.
    Mr. Castro. I know the proposal was to take USAID down 
dramatically. But I am trying to remember specifically for 
Africa what happened?
    Mr. Day. In 2018 the non-security outside of the 
international disaster assistance was roughly 8 billion.
    Mr. Castro. But how does that compare to 2017, 2016, 2015?
    Mr. Day. I do not have those numbers in front of me right 
now, but it has fluctuated back and forth over the last several 
years.
    Mr. Castro. OK. And then the second part of it is what are 
we doing to develop democracies on the continent?
    Mr. Day. So, you know, the work that USAID, USAID does all 
across the continent is centered on the core value of democracy 
because that is a reflection of American values and principles. 
So, democratic principles are woven into essentially every 
program that we have on the continent, which is hundreds of 
programs across 40 countries. And so, democratic principles, 
whether it is electoral support or good governance, we work 
with governments when we can. In some cases we cannot. But we 
work on electoral principles, we work with civil society, we 
work with media all across the, all across the continent. We 
work with political parties. And so it is woven through all of 
our programs in all of our countries.
    Mr. Castro. Sure. Well, and again I want to thank you for 
you all's work and everything that you are doing. I know that 
you are doing it sincerely and earnestly.
    I just think that we have to avoid the temptation to see 
these nations as only charity cases because I think that it 
undermines, I think, their humanity and who they are. And we 
have to be, we have to be concerned not just with our own 
success and American businesses' success, which of course we 
all agree with, and we want to beat China out. I do not want 
China to have stronger relationships on the continent than we 
do, but I think the way that we do that is by affirming Africa 
and their nations and affirming their own capacity and building 
their own capacity.
    So, thank you again for being here. Thank you for 
everything you guys are doing. We appreciate it.
    Ms. Bass. Representative Wagner.
    Mrs. Wagner. Thank you, Madam Chair. And I thank, thank our 
witnesses for their time and for their service to our country.
    Ms. Lenihan, I understand that Russia has been expanding 
its footprint in Sudan and is considering establishing a naval 
base near Port Sudan. But after months of protests against the 
autocratic regime, Russian-backed Omar al-Bashir has been 
deposed on a peaceful coup. Will regime change in Sudan 
increase or diminish the likelihood of an enhanced Russian 
presence in Sudan? And how would this affect U.S. interests?
    Ms. Lenihan. Thank you, Congresswoman, for the question.
    Russia also is of strategic concern for the United States, 
as outlined within the national defense strategy. And we do see 
an increasing interest on the continent. In the context of 
Sudan, there certainly is a relationship. The situation is 
obviously very dynamic at present as far as what will occur 
within that country with the transitional military----
    Mrs. Wagner. Will the regime change do you think increase 
or diminish the likelihood of their enhanced Russian presence?
    Ms. Lenihan. I would say it would be difficult to tell. But 
certainly once there is an established relationship, that could 
be affected once that leader is gone.
    Mrs. Wagner. Ambassador Nagy, Russia's actions in Sudan 
look a lot like its activities in Venezuela and Syria to me. 
What do you think Russia's intentions are, and what lessons 
should the U.S. draw from Syria and Venezuela scenarios?
    Mr. Nagy. Thank you very much, Congresswoman.
    I believe that Russia is very opportunistic in Africa. They 
do not have the resources of China. They certainly do not have 
the resources of the United States. They look for places where 
they can cause trouble, basically, and poke us in the eye. Or, 
as in the Central African Republic specifically, poke the 
French in the eye.
    We just have to be very careful and block wherever we can. 
With, you asked about Sudan, I am hoping that if the transition 
in Sudan goes in the direction it does go in, we end up with a 
civilian-controlled government, then they will have a totally 
different view of Russia than the government that they will be 
replacing.
    Mrs. Wagner. We absolutely are all hoping for that.
    Mr. Day, I am so glad that you highlighted the centrality 
of women's empowerment in achieving sustainable development 
goals. Education and economic empowerment for women have 
positive, positive ripple effects in developing countries all 
across the globe.
    I am particularly interested in efforts to reduce the 
gender gap in property ownership in sub-Saharan Africa where 
the World Bank found that men are almost three times more 
likely than women to own property by themselves. This disparity 
has wide-ranging economic consequences and their, their 
daughters.
    Can you tell me how USAID is working to reduce gender gaps 
in property ownership in sub-Saharan Africa?
    Mr. Day. Thank you, Congresswoman.
    This is absolutely vitally important to Africa's 
development, so thank you for raising it. And it is also 
vitally important to many of the countries that I have worked 
in in my----
    Mrs. Wagner. Yes.
    Mr. Day [continuing]. In my career, including the Middle 
East. But it is probably even more so in Africa in that I 
sometimes say that these economies are not going to succeed if 
they only use half their brain. And I think that is never more 
true than in, than in Africa.
    And so, women need access to not only land rights but also 
education. And they need access to finance so that they can 
access markets. They need to have access to networks. But then 
also there is a regulatory, and a policy, and a legal, and a 
cultural environment that needs to also be, that needs to be 
changed. And that is exactly what USAID is doing in the Women's 
Global Development and Prosperity Initiative, WGDP.
    Mrs. Wagner. Right.
    Mr. Day. So, we are really looking forward to digging in 
our heels in the program.
    Mrs. Wagner. Well, let me know how we can be helpful 
because I see it as really the only way forward. And the 
property ownership gap is outrageous at the moment.
    I have a little bit of time left. So, Mr. Day, Tanzania has 
long been considered a democratic success story. However, 
current President John Magufuli, I believe, has begun to 
violate democratic norms in the name of eradicating corruption. 
Can you tell me how USAID is working to prevent democratic 
backsliding in Tanzania?
    Mr. Day. Thank you again for the question. And the 
assistant secretary and I have had numerous conversations about 
this, lamenting about----
    Mrs. Wagner. Yes.
    Mr. Day [continuing]. The developments in Tanzania. We are, 
we are deeply concerned about the rhetoric coming out of 
Tanzania, not only from a human rights perspective but from a 
democracy perspective as well, and a business perspective. 
Because there are a lot of American businesses who are waning 
their interest in Tanzania because of the developments there.
    Now, we have continued to work on our health programming, 
particularly PEPFAR, which is vitally important in Tanzania. 
But a lot of our programming has really had to shift away from 
support and partnership directly with the government as a 
result of these developments. And we are now really focused 
more on civil society and independent media. And that's where 
we've shifted a lot of our programs.
    Mrs. Wagner. Well, I would really hate to see backsliding.
    And, Ambassador Nagy, I know I am out of time, but I would 
be very much interested in your perspective on this, too, and 
certainly I think our committee would. So, either in writing or 
perhaps would be----
    Mr. Nagy. Sure.
    Mrs. Wagner [continuing]. Would be best.
    Mr. Nagy. Very quickly. Tanzania is especially sad because 
that was one of the beacons----
    Mrs. Wagner. Right. Yes.
    Mr. Nagy [continuing]. Of democracy through Africa's 
history and decolonization. So it is, it is hurtful to the 
entire continent and the friends of Africa. And our embassy, 
believe me, is extremely engaged across a whole spectrum of 
interlocutors of making the point trying to promote democracy, 
and also trying to help those organizations that are 
Tanzanian----
    Mrs. Wagner. Right.
    Mr. Nagy [continuing]. And are trying to hold onto 
democracy. Because there is a danger of it evolving into what 
we would call a Potemkin democracy where you have the 
structures of democracy but without anything really behind it.
    Mrs. Wagner. Well, the backslide is just terrible. And I 
appreciate the chair's indulgence, and for your tremendous 
service in the area.
    Ms. Bass. And, Representative Wagner, in the subcommittee 
we are probably going to take up some of these subjects again. 
And you are welcome to come.
    Mrs. Wagner. I look forward to it. You bet. This is 
something that is near and dear to my heart.
    Ms. Bass. Good.
    Mrs. Wagner. And I would be very pleased. So I appreciate 
my friend Ms. Bass' invitation.
    Ms. Bass. Absolutely.
    Representative Lieu.
    Mr. Lieu. Thank you. I would like to thank the panel for 
being here. Thank you, Ms. Lenihan, for your public service, 
including your service in our Naval Reserves.
    I would like to ask you first some questions about Libya. 
So, Acting Secretary of Defense Pat Shanahan has said that he 
believes that a military solution is not what Libya needs. 
Would you agree with that statement?
    Ms. Lenihan. Thank you, sir.
    I would say we need a political solution in Libya for long-
term stability.
    Mr. Lieu. OK. On April 7th, Secretary of State Pompeo said, 
``We have made clear that we oppose a military offensive by 
Khalifa Haftar's forces and urge an immediate halt to these 
military operations against the Libyan capital.''
    Would you agree with that statement?
    Ms. Lenihan. Sir, I would note that we do agree a political 
solution is required in Libya.
    Mr. Lieu. Right.
    On Friday, April 19th, there was a story that ran in the 
media. I will just pick one of them. This happens to be from 
CNN. The title is, ``Trump praises Libyan General Haftar as his 
troops march on U.S.-backed government in Tripoli.''
    So, my question is what is the current U.S. position with 
regards to Libya, are we supporting General Haftar or are we 
supporting the current government of Libya?
    Ms. Lenihan. We continue to support a political solution 
led by the U.N. Ghassan Salame has been working to bring all 
sides of the parties to the table in order to find a way 
forward in Libya.
    As far as Haftar, over time we have engaged with multiple 
parties in discussions recognizing how complex the situation is 
in Libya and how all parties need to be onboard for a solution 
forward.
    Mr. Lieu. Is the United States supporting General Haftar?
    Ms. Lenihan. The United States supports a political 
solution in Libya.
    Mr. Lieu. Is it your understanding that Russia is 
supporting General Haftar?
    Ms. Lenihan. I would say General Haftar has supporters from 
the international community.
    Mr. Lieu. Do those supporters also include United Arab 
Emirates?
    Ms. Lenihan. We have engaged with United Emirates in order 
to talk about a political solution, recognizing the way forward 
is through a coordinated effort in Libya.
    Mr. Lieu. Is it your understanding that Russia and UAE have 
provided weapons to General Haftar?
    Mr. Day. Sir, I cannot speak to that.
    Mr. Lieu. OK. And are you aware or not if Saudi Arabia is 
supporting General Haftar?
    Mr. Day. Again, sir, I cannot speak to that.
    Mr. Lieu. OK. After General Haftar's attack on the Libyan 
capital the U.S. pulled some military forces out of Libya. Do 
we have any more U.S. forces in Libya?
    Mr. Day. DoD removed its forces and has not returned them.
    Mr. Lieu. I am sorry, say that again?
    Mr. Day. DoD removed its forces and has not returned them.
    Mr. Lieu. OK, thank you.
    I would like to end just this thing on Libya by saying I 
think it would be good if Donald Trump and his State Department 
friends got on the same page on Libya because I am just reading 
the same facts you are and there are being conflicting signals 
sent by the President versus the Secretary of Defense and 
Secretary of State.
    So, I would like to ask now about civilian casualties. The 
2018 National Defense Authorization Act required an annual 
report on civilian casualties resulting from U.S. military 
operations. Congress has also directed DoD to develop a 
strategy for reducing casualties. At the same time, we are 
seeing a number of reports from non-governmental agencies that 
contradict the numbers from the Department of Defense.
    So, my first question is, what methodology does DoD use to 
track and investigate civilian casualties, particularly in 
Africa?
    Ms. Lenihan. At the Department of Defense we take civilian 
casualties extremely seriously. We take extraordinary measures 
in order to ensure that we avoid any harm to civilians in our 
operations.
    In the case of Somalia we work closely with the partners as 
well as under the consent of the Federal Government of Somalia 
and all attacks occur in Al-Shabaab areas which are normally 
secluded, with low civilian populations. And anything as far as 
our practices I would say I would be more comfortable talking 
about in a classified environment.
    Mr. Lieu. So, if we could either get a classified briefing 
or a letter that sort of lays out the methodology that DoD 
uses, would that be OK?
    Ms. Lenihan. Sir, I will followup with you on that.
    Mr. Lieu. OK. What methods does DoD use to measure whether 
your efforts to reduce civilian casualties are successful?
    Ms. Lenihan. We undergo extensive analysis within our 
planning before we undertake any kind of operation. And then 
afterwards we continue to do a review of what occurred. We also 
welcome any reports from others as far as any allegations or 
concerns with civilian casualties. Then we run those through 
for thorough reviews.
    We also continue to review practices to ensure that we are 
appropriately dealing with this in the best manner. We hold 
ourselves to a very high standard. And continue to----
    Mr. Lieu. Thank you. If I could ask one last quick 
question.
    In the last 2 years have civilian casualties in Africa from 
U.S. forces have they gone up, or gone down, or stayed the 
same?
    Ms. Lenihan. Sir, in the last year we published our 2018 
CIVCAS report. Within that we noted those two civilian 
casualties which occurred in Somalia.
    Mr. Lieu. Thank you. I yield back.
    Ms. Bass. Mr. Fitzpatrick.
    Mr. Fitzpatrick. Thank you, Madam Chair. Thank you all for 
being here.
    I want to spend a little time focusing on the current human 
rights situation in Zimbabwe. As I am sure you know, Zimbabwe 
is a country that has experienced multiple challenges to 
democracy and human development over the past two decades. And 
our government, as well as international human rights 
organizations have documented disappearances, torture, killing, 
rape, and other acts of violence committed by government agents 
against its own citizens in Zimbabwe.
    And since the recent elections, live ammunition has been 
used against civilians on two separate occasions, resulting in 
multiple deaths.
    Our government has consistently maintained the need for 
fundamental changes to occur. Targeted economic measures will 
be lifted from individuals in positions of power in Zimbabwe. 
And I would encourage my colleagues to join me in a letter that 
I am putting together reiterating the changes we would like to 
see to allow for Zimbabwe to head to a place that embraces 
human rights.
    So, I have two questions for the panel.
    No. 1, Zimbabwe continues to experience repressive violence 
targeted at stifling freedom of assembly. Just this week, 
government actors targeted street vendors. Across the continent 
we have seen continued seemingly harsh measures employed by 
government agents to discourage citizens from protesting. And 
my questions is, what is the State Department doing to 
encourage tolerance of freedom of assembly across the 
continent, but specific to Zimbabwe?
    And second is, during the January protests in Zimbabwe 
internet was suppressed for many days, raising tensions of 
citizens both within and outside the country who were unable to 
confirm the safety of their loved ones. What measures is the 
department engaging in to encourage citizens that they are able 
to maintain communication, in particular as the U.N. has 
declared access a basic human right to aid in access and 
freedom of opinion and expression?
    Mr. Nagy. Thank you very much, Congressman.
    Zimbabwe is another one of those tragic needless cases 
which is where the tragedies are purely manmade. For me it is 
very special because my kids were born in Zimbabwe.
    I had this same conversation with President Mnangagwa at 
the United Nations in September. And I told him exactly what we 
were looking for if we want to start opening the door to better 
relations.
    I will be going to Zimbabwe in a couple of weeks, and I 
look forward to having my next conversation with President 
Mnangagwa because nothing much has happened since then. They 
keep coming to us saying that, well, Zimbabwe is open for 
business. We want to engage. We want to have better relations.
    Our point is there are two odious pieces of legislation 
which have been on the books:
    One, specifically prevent public assembly, freedom of 
assembly;
    The other one is on freedom of expression.
    And before we can talk about anything else, those two 
pieces of legislation need to be either withdrawn or replaced 
by much more positive ones. Because until then, we are really 
not interested, despite so many people wanting to get back to 
doing trades and things like that. We just cannot.
    We appreciate the ZIDARA legislation because we can point 
to that. As you mentioned, sir, we have had a number of 
specific sanctions. We hold that in reserve going into the 
future.
    So, the United States of America is not going to warm 
relations with Zimbabwe until they have been talking a good 
game, let's actually see something that start improving the 
environment.
    Recently, in the most recent demonstrations where there was 
violence a couple of months ago, for the first time we had 
evidence of Zimbabwe security forces using rape as a weapon of 
war. That is a road that we cannot allow the country to go down 
on. So, we will maintain a very strong pressure on there until 
there are actual concrete acts on their part.
    Mr. Fitzpatrick. No question, sir. And the situations that 
we are being apprised of are horrific, including rape being 
used as a tool of war; false imprisonment of people who are 
just advocating for freedom of assembly, freedom of speech. 
There was one gentleman who had the privilege of meeting Pastor 
Iban who is going to be detailed, the details of that case in 
my letter. I would really encourage you, sir, to look into that 
circumstance, look into those situations. If there is anything 
we can do on this committee to advocate, please let us know.
    I yield back.
    Mr. Engel [presiding]. Thank you.
    Mr. Sherman.
    Mr. Sherman. Mr. Day, hello. We provide a fair amount of 
aid to Africa. One thing that occurs to me is that we should be 
providing textbooks, electronic of paper, everywhere. First, it 
is pretty hard to steal a textbook. If you do steal textbooks, 
it is pretty hard to sell them if the United States is 
providing them in that country for free to the students. And 
they, of course, could be electronic. I am talking about 
teaching materials.
    But in that way, while I am not saying that the textbooks 
need to be written so that Berkeley, California's School Board 
would approve them, they can reflect our values of democracy, 
freedom, openness, transparency. I hope you will take that 
under consideration.
    Mr. Day. Thank you. We absolutely will. Education programs 
are at the core of what we do. So----
    Mr. Sherman. And I know in some countries parents are 
required to pay for the textbooks. And that is one reason to 
either not send your kid to school or to send your kid to a 
madrasa if you happen to be in one of the countries where the 
Wahhabis are funding madrasas.
    The President referred to the region we are talking about 
as a group of blank line-hole countries. Ambassador Nagy, I am 
sure that was not helpful to our outreach to the peoples of 
Africa. And so, the question is what do we do to counterbalance 
that, erase it, by demonstrating to the people of Africa that 
America regards their countries as important, vibrant, 
progressing, an important part of human kind's future?
    One possibility is that the President goes to Africa. I 
know his relatives have gone. That has not been entirely 
successful. I am not--I cannot guarantee that the President 
would do everything he should, should he go to Africa, but his 
mere appearance there might demonstrate that his administration 
values the continent.
    Would that or anything else you can identify help remove 
the taste in the mouth in Africa of the unfortunate comments?
    Mr. Nagy. Congressman, in my visits to Africa--I have now 
visited I think 15 countries, I am going to visit five more--I 
have come across only genuine good feelings toward the United 
States of America. What I keep telling Africans, look at 
America. By thy deeds thou shall be known. I have had nothing 
but positive interactions.
    I agree with you, high level visits to Africa are so 
welcome by our African friends and partners. For the White 
House travel schedule, sir, I would refer you to the White 
House.
    Mr. Sherman. Let me move on to another question.
    We see the debt trap system that China is using. Of 
particular concern is their possible control of the Doraleh 
container terminal in Djibouti or their efforts to acquire 
same. And I am working on legislation that would declare that 
certain debt trap instruments the country would just be free 
not to pay. And they would not lose their credit rating. They 
would not lose their access to U.S. capital. It would be the 
``If It Is A Phony Debt, Just Tear It Up'' Act.
    Ambassador Nagy, what do you think?
    Mr. Nagy. Not being an economist, I have to beg off. But I 
agree with you totally about the concern of the debt. What I 
mentioned before was we went through a whole decades of 
Africans owning incredible debt that had to be forgiven. And 
why do through that cycle again?
    Being sovereign countries, of course----
    Mr. Sherman. Well, the Chinese do not forgive the debt, 
they take the port. We have seen that in Sri Lanka.
    Mr. Nagy. We did.
    Mr. Sherman. We will see that in Africa.
    Mr. Nagy. We did. Up to now, the Chinese have not seized 
any piece of State-owned property in Africa. But that is not to 
say anything about the future.
    Mr. Sherman. Well, discovered this technique.
    Mr. Nagy. So, it is of concern, equal concern to us.
    Mr. Sherman. And I will point out, I mean, the question 
arises for any African country, why repay the debt? The answer 
is because western financial institutions will not loan you any 
more money if you default on debt. And if it is legitimate 
debt, fair debt, that is probably a good idea.
    Mr. Nagy. Can I?
    Mr. Sherman. But, but to have the Chinese debt, if you do 
not pay it, if you do not pay a bad Chinese instrument we would 
have to define that. That should not hurt, affect your credit 
rating.
    Mr. Nagy. Can I give you a piece of good news?
    Mr. Sherman. Yes.
    Mr. Nagy. An American company actually won a contract from 
the Chinese in Uganda for a $3 billion refinery. They are doing 
it as equity. And it took a while to convince Ugandans of the 
advantage of that. But once they did they said, wow, that is 
not incurring more debt.
    Mr. Sherman. You are saying the Chinese are involved in 
this, too?
    Mr. Nagy. Americans----
    Mr. Sherman. OK. I think you misspoke.
    Mr. Nagy. The Americans won it from the Chinese.
    Mr. Sherman. OK. We prevailed and got the contract?
    Mr. Nagy. Yes, we prevailed, so.
    Mr. Sherman. We did not get it from the Chinese, we 
prevailed over the Chinese.
    Mr. Nagy. We prevailed.
    Mr. Sherman. Got you.
    Mr. Nagy. Yes, sir.
    Mr. Sherman. I believe my time has expired. Thank you.
    Chairman. Engel. Thank you.
    Mr. Wright.
    Mr. Wright. Thank you, Mr. Chairman. Mr. Ambassador, first, 
thank you for your distinguished service for our country and to 
Texas in particular.
    I want to go back to Cameroon. I share Chairwoman Bass' 
interests there. I have a number of Cameroon nationals in my 
district. Both of you ran out of time.
    You mentioned that the government have established some 
Potemkin Institutions. They were not really doing anything to 
bring the two sides together. Could you elaborate on that, 
because you ran out of time before?
    Mr. Nagy. Sure. Yes, sir.
    I understand the Cameroonian Government established several 
commissions. And I am sorry, I do not know the exact name of 
it, whether it is the Multi-cultural Institution for National 
Reconciliation or something, which on the face of it sounds 
good. But the institution--and there have been a couple of 
these--but they have not been provided adequate budget, and 
they have not really done anything.
    Because what the country needs more than anything else is a 
genuine open dialog probably to include the diasporas of the 
Cameroonians because they have a great deal of interest in 
this. Because, sir, what is happening, both sides are becoming 
further and further radicalized.
    Unfortunately, I believe that the President of Cameroon is 
being told by his hard liners that he can win this thing 
militarily. There is no way that they are going to win this 
militarily. The violence is going to get worse in the northwest 
and the southwest. The arm for an arm, literally an eye for an 
eye, and the whole world will be blind there. The violence will 
spread to the west province. It may even spread to the litoral 
province which is the large city of Douala, so there has to be 
something.
    We are very, very energetically speaking with our allies. 
That is why I said that we just had in the Security Council 
this Monday a what the United Nations called an Arrias where it 
is an open debate. And it is so clear that everybody wants to 
move forward on this.
    Are sanctions on the table? Everything is on the table 
moving forward. But we have to bring this situation to an end, 
else there is a possibility of what happened in Nigeria with 
Boko Haram. It started as a small movement and now look at it. 
And it would be disastrous for the region if the Cameroon 
Government turned this thing into yet another type of Boko 
Haram.
    Mr. Wright. Or Boko Haram came back into Cameroon.
    Well, you mentioned, you know, it appears to be spiraling 
out of control because the more the security forces clamp down, 
the more resistance there is on the Anglophone region. So, what 
can we do that we are not already doing?
    Mr. Nagy. Well, like I said, the best we can do for right 
now is just work for our allies to really make the Cameroonian 
Government understand the need for a real dialog. And if that 
does not happen relatively quickly, then we have to look at the 
array of other tools we have in our toolkit. Because, frankly, 
the possibility of sanctions is always there. But it is always 
better to work in concern with our friends before we go in that 
direction.
    Because it is, the frustrating thing is that it is in the 
interests of everybody to have a national dialog. The situation 
will not end militarily. Each day the atrocities will get worse 
and worse.
    Mr. Wright. Is permanent separation of the two regions a 
possibility?
    Mr. Nagy. Sir, I do not believe so because I think both 
Cameroonians, including in the southwest and northwest, have a 
sense of Cameroonianness, and the concept of a separated what 
they call Ambazonia in my view is not realistic.
    Mr. Wright. OK.
    Mr. Nagy. It is the view of the United States of America to 
recognize the integrity of the country of Cameroon.
    Mr. Wright. Right. Thank you very much. I yield back.
    Chairman Engel. Thank you very much.
    Ms. Wild.
    Ms. Wild. Thank you, Mr. Chairman. Thank you for being here 
today.
    I am troubled, as I think a number of people are, about 
China's expanding business interests in Africa, especially the 
manner in which they are expanding their business interests, 
including predatory lending and obtaining substantial 
collateral and leverage over African governments. And 
specifically, this question has to do with access to minerals 
and natural resources.
    And the one I am particularly interested in is cobalt, 
which of course is important for electric cars. And we know 
that the DRC has an abundance of cobalt. I have heard reports 
that China has infrastructure agreements that essentially give 
it, China, monopolistic mining rights in the DRC. And I have 
also, I also have come to understand that China has taken on an 
imperialistic approach through labor abuses and displacement of 
local workers in favor of Chinese nationals.
    So, before I go any further, I see a couple of nodding 
heads. Am I generally correct about what I have just said? 
There seems to be consensus. Mr. Lenihan, do you agree?
    Ms. Lenihan. [Nonverbal response.]
    Ms. Wild. And it is not a trick questions, I just, you 
know, wanted to make sure that this was something that I 
understood correctly.
    What I would like to explore is how we make inroads in 
those markets and at the same time preserve, as somebody who is 
very labor oriented and very--I am the Education and Labor 
Committee in addition to this--I am not interested in only 
working on education and labor rights here in the United States 
but making sure that we are not taking advantage of workers 
abroad, or that our employers, our United States employers are 
not doing so.
    So, for any one of you I am interested to hear what your 
thoughts are on what we can do to at least compete with China. 
And let's focus on the DRC right now.
    Mr. Nagy. Thank you very much, Congresswoman, especially 
for focusing on the DRC because there I think we have a real 
opportunity with new President Tshisekedi, who since his 
inauguration has been doing a lot of the right things and 
saying the right things, and we remain very engaged with him. 
And he has said that he would prefer the United States of 
America to be his partner of choice.
    So, if he pursues the right moves in fighting corruption, 
in leveling the business playing field, I know the U.S. 
business sector will be wildly enthusiastic to get back in 
there.
    I met with our business community when I was there. I met 
with business people here who are eager to get into China and 
specifically deal in some of those commodities you are talking 
about, cobalt, including the rare earths, because that is 
another whole field.
    And this is, again, the thing with U.S. business 
investment: U.S. companies have so any positive practices, not 
just toward the environment but toward labor, toward women's 
rights, not paying bribes, and things like that. This fits in 
squarely with President Tshisekedi's goals. We have to trust 
and verify and work hand-in-hand with him. But I am more 
optimistic about the Congo than I ever have been before in my 
life because this is a, this is a huge deal.
    Again, U.S. businesses bring jobs. It is not the condition 
that everybody above turning a shovel is brought from another 
country.
    Ms. Wild. Right.
    Mr. Nagy. And the Africans appreciate that. Even the 
dictators can look outside their doors and see the millions of 
young Africans without jobs who are angry. So they are just as 
eager to bring American companies that bring the jobs. So----
    Ms. Wild. So, what can we do to encourage that? What can we 
do to help that practice along and facilitate it? Mr. Day, you 
seem to want----
    Mr. Day. Go ahead.
    Mr. Nagy. No, go ahead, Ramsey.
    Mr. Day. I was just going to quickly add that we are active 
in this space, in the DRC. We have been supporting the 
Responsible Minerals Trade Program for quite some time. And we 
have been able to validate over 450 mines in the DRC as 
conflict free, which increases the level of transparency 
throughout the entire process. And so, these are important 
programs to focus on.
    But I would also defer to the assistant secretary?
    Mr. Nagy. So, exactly. With the BUILD Act, for example, the 
support that we can give to U.S. businesses, having our 
embassies weaponized to aggressively support U.S. business, to 
set up the field teams, to work with the host governments to 
tell them specifically what they can do to improve their 
business environment, this all works together. It requires a 
tremendous amount of energy but it is well worth it.
    And I can assure you the U.S. business community is beyond 
interested and excited about the possibilities that Africa 
offers.
    Ms. Wild. That is the sense that I have also.
    Thank you so much. I yield back.
    Chairman Engel. Thank you.
    Mr. Watkins.
    Mr. Watkins. Thank you, Mr. Chairman. And thanks to the 
panel for being here.
    Islamic extremist groups in Africa, including al-Qaeda, Al-
Shabaab, Boko Haram, have caused problems of course for a long 
time. Which group do you feel poses the greatest threat?
    Ms. Lenihan. There are a significant number of terrorist 
groups operating in Africa on multiple parts of the continent. 
We have a priority operating in Somalia where we have seen Al-
Shabaab have a significant impact on the country. Although, I 
would note that there is some progress that we are seeing in 
Somalia in a heartening way.
    We have seen the Federal Government of Somalia work with 
the Federal member States, which is critical for political 
progress.
    We have seen the return of our embassy back to Mogadishu 
for the first time since the 1990's.
    So, although progress is slow in Somalia, we are in fact 
seeing it.
    But there are also other groups of concern across the 
continent. We have talked about the Sahel where today you have 
both al-Qaeda and ISIS affiliates operating there with 
increasing gains, and other nodes throughout.
    Mr. Watkins. Yes. Somalia has been fragile and violent for 
more than 25 years. What more should the U.S. be doing? Any 
comments? Please, Mr. Ambassador.
    Mr. Nagy. Sure. Exactly right, Congressman. That has been 
one of my biggest frustrations. In 2002, when I left as 
Ambassador to Ethiopia, Somalia was a mess. There was an 
Islamic radical group called al-Ittihad. I come back 20-some 
years later, Somalia is still a mess. The Islamic radical group 
is called Al-Shabaab. Billions of dollars spent since then.
    Luckily, now for the first time I think we have the 
opportunities to make real progress. We have an extremely 
talented Ambassador on the ground in Mogadishu, Ambassador Don 
Yamamoto, who engages constantly, continuously with the Somali 
Government.
    We have what I feel like is a three, a real 3D approach 
there to where we are working very closely together, and with 
the Somali Government. Very dynamic prime minister. Maybe, 
maybe this time it really will happen. I do not want somebody 
else to come back here in 20 years and face the same situation.
    Mr. Watkins. Does it concern you, I believe the DoD is 
planning a 10 percent reduction in Special Forces deployed to 
the--to Africa? Is that a problem?
    Mr. Nagy. Honest to goodness, Congressman, I do not believe 
so because to me part of that, and of course I will turn it 
over to my colleague to address it more clearly, I think part 
of that is actually based on some successes. For example, in 
northern Cameroon, working with the Cameroonians. And if I 
looked at the total number of exercises and DoD activities in 
Africa last year, they were actually larger in number then than 
the year before.
    We will obviously work together with whatever resources we 
are given to make sure that they are optimally used and to 
effectiveness. So, from my point of view that is a decision for 
DoD. And we will work with our partners the best way possible.
    Ms. Lenihan. Thank you. I can add to that to say that the 
majority of our activities in Africa are not affected. We are 
engaged in a robust level through multiple tools which I 
referenced in my opening comment. Some adjustments that we have 
made are CT-focused specifically, as Ambassador Nagy mentioned, 
oftentimes they are in areas where we have already seen success 
and our partners have matured through those programs and so 
they are coming to a natural end.
    But we will continue to review whatever decision to make. 
We constantly review our activities and our posture in order to 
react to conditions on the ground. And I am sure we have got 
the best way forward working in conjunction with State and our 
other partners in the U.S. Government.
    Mr. Watkins. To the best of your knowledge is al-Qaeda in 
the Islamic Maghreb, is that AQIM organization affiliated and 
interconnected with al-Qaeda in Iraq or in the Middle East?
    Ms. Lenihan. AQIM is an al-Qaeda affiliate, so it is part 
of a larger organization. We also have seen some consolidation 
of al-Qaeda groups into something called Janam which is 
operating within the Sahel.
    Mr. Watkins. Thank you very much. I appreciate it. I yield 
my time.
    Ms. Bass [presiding]. Representative Allred.
    Mr. Allred. Thank you, Madam Chair. And I want to thank the 
chairman for holding this hearing today and you all for coming 
up here.
    I think it is critical that we not ignore Africa and that 
we counter Chinese and Russian influence in Africa. And I want 
to commend many of our efforts through USAID and the State 
Department to stabilize and support institutions in Africa, in 
particular of course, the PEPFAR program which was created by 
my constituent, President George W. Bush.
    However, I do have some concerns with the Administration's 
approaches, including the recognition of the fraudulent 
election outcome in the DRC, a watering down of the U.N. sexual 
violence resolution, and of course, the budget cuts that were, 
this committee had a hearing on not long ago that were 
rejected, of course, out of hand.
    And I wanted to turn to some comments on the 
Administration's national security strategy which portrays 
Chinese influence as undermining African development by 
``corrupting elites, dominating extractive industries, and 
locking countries into unsustainable and opaque debts and 
commitments.'' I agree with that assessment. But the 
Administration's intention to counter that appears to be 
through bilateral actions.
    I think one of our strengths that is unique to the United 
States is our ability to engage multilateral allies to engage 
in whatever the issue is. I just want Ambassador, Mr. 
Ambassador, and Ms. Lenihan if you could, to address why we are 
approaching this through bilateral communications and actions 
instead of the U.N. and some of our allies in the region?
    Mr. Nagy. Congressman, as I said earlier, I have worked 
through seven different administrations. And each 
administration has its own unique priorities and their 
approaches to how to do business. Not that one is, you know, 
any better than the other, they are different. The priorities 
for this Administration is doing things bilaterally. And that 
can work just as well as doing things multilaterally.
    Some efforts are more effective one way, other efforts are 
more effective the other way. We maintain a very robust 
engagement with the African Union. For example, this conference 
that we have organized for tomorrow afternoon on Sudan, the 
African Union is both sending a representative from Addis and 
they will be teleconferencing from Khartoum where their expert 
is engaged directly.
    So, we engage with African States bilaterally. We also 
engage at the sub-regional level. In all of my visit to the 
continent I have visited ECOWAS. I visited EGAD during my trip 
to East Africa. So it is a dual-track approach.
    We, as I have said, we have also supported very strongly 
the continent-wide Fred Trade Agreement. So it is a bit of 
both. We will do whatever is the most effective, sir.
    Mr. Allred. OK. I want to move on and talk about the Belt 
and Road Initiative that is now putting a digital silk road 
through which some countries in Africa have been emboldened, I 
am particularly thinking of Zimbabwe, Tanzania, and Uganda, to 
increase surveillance on their citizens, including into the 
political opposition.
    So, Mr. Ambassador and Mr. Day, what are the implications 
of the expansion of this digital Chinese influence in Africa? 
And what plans do we have to protect civic and political space 
in Africa from being eroded by the surveillance culture that 
China is attempting to export?
    Mr. Nagy. Sir, it is obviously very negative, the impacts 
of that activity. We at the embassy level, at the Ambassador 
level definitely engage with the governments, tell them of the 
disadvantages and the vulnerabilities that they will have. In 
some cases we have had to ask the government to take the 
cameras down that face our embassies. And other embassies have 
done the same thing.
    Some governments are receptive. Unfortunately, other 
governments are not. At the end of the day it is a sovereign 
decision on their part. We regret very much what is going on 
and, hopefully, people will realize the vulnerabilities that 
they are opening up to themselves.
    Mr. Day. Congressman, I would just add that we are also 
working with our partners at our level to ensure that there is 
a level of awareness of the risks, particularly to American 
investment on the continent, and sure that there is an 
understanding that American companies are going to be very 
reluctant to engage in trade and investment with a particular 
country if they have built their infrastructure on--the digital 
infrastructure in this way.
    And it seems to resonate. But in many cases they may not 
have many options. And we are certainly sensitive to that. But 
we are certainly trying to raise awareness of some of the risks 
to this.
    Mr. Allred. OK. Thank you, Madam Chair.
    Ms. Bass. Thank you.
    Representative Levin.
    Mr. Levin. Thank you, Madam Chairwoman. And thank you for 
your leadership in this area.
    You know, I feel like the U.S. pays much less attention to 
sub-Saharan Africa than it should. And this is a problem of 
long standing. So, it was great to hear all of your passion and 
commitment and knowledge this morning.
    I want to start with a question on Somalia for Ms. Lenihan. 
The U.S. has dramatically increased air strikes to counter Al-
Shabaab in Somalia since April 2017. We carried out more air 
strikes in Somalia in the last 9 months of 2017 than in the 5-
years from 2012 to 2016. Then there were 47 in 2018, and almost 
30 just in the first quarter of 2019 as far as I can find out.
    Until recently, the Administration claimed that U.S. 
strikes had not caused any civilian deaths in Somalia during 
this period. However, last month AFRICOM acknowledged two, that 
two civilians had in fact been killed by a U.S. strike in 2018. 
And Amnesty International and other third parties have provided 
credible evidence of additional civilian casualties that are 
not accounted for in the U.S. Government's assessment.
    So, Ms. Lenihan, my question is why are AFRICOM'S official 
assessment, assessments of civilian casualties, so much lower 
than the assessments provided by credible third parties?
    Ms. Lenihan. Thank you, Representative for your question.
    Our strikes are one component of our broader approach that 
we take within Somalia. Civilian casualty is something that we 
consider a very grave situation. It is something that has 
significant senior leadership attention in the Department of 
Defense. Any time----
    Mr. Levin. So, I have very little time. So, can you answer 
my question, why are they different?
    Ms. Lenihan. Of course. So, we welcome any information that 
we find from other groups. Amnesty International is actually 
engaged with them. My team has met with them, as well as in 
AFRICOM. We take that information under review. We do our own 
analysis and so forth, and based on our own information and 
what they have provided, we have a different perspective on the 
numbers.
    Mr. Levin. Well, but is not it true that AFRICOM launched 
an internal review in part because of Amnesty's report, and you 
found that 2018 air strikes targeting Al-Shabaab did kill two 
civilians. That was, that was acknowledge; right?
    Ms. Lenihan. There were two civilian----
    Mr. Levin. And that is a fact that had not been previously 
disclosed?
    Ms. Lenihan. Our combatant commands are constantly 
reviewing our best practices as well as their information. 
AFRICOM did undergo an additional review. It did find out 
information regarding two civilian casualties.
    Mr. Levin. All right, so it is true, yes.
    Ms. Lenihan. Yes. And----
    Mr. Levin. All right. Well, I would just encourage you to 
be transparent. And I am very concerned about civilian 
casualties.
    I also want to ask a question about a very different 
subject to Mr. Day, and that is climate change.
    In the span of less than 2 months we saw Cyclones Idai and 
Kenneth hit southeastern Africa, and with them hundreds of 
deaths and tens of thousands of people displaced. The New York 
Times reported that this was the first time that two cyclones 
had struck Mozambique in the same season ever.
    What is the U.S. Government doing to improve the 
Mozambique, Mozambican Government's response to such incidents 
and increase the resilience of the local population to extreme 
weather events, which seem like they will happen more and more 
frequently?
    Mr. Day. Thank you for the question. These, of course, were 
devastating events, particularly Cyclone Idai in Beira. We have 
had a longstanding and good relationship with the Government of 
Mozambique, but a lot of our programs, particularly in Beira 
and as you go further north, have really been focused on HIV 
and AIDS work. So PEPFAR and PMI, the President's Malaria 
Initiative have been active up there.
    Mr. Levin. Right.
    Mr. Day. We have not had many programs in that area of the 
country. A lot of our programs have been in the south where 
more of the population centers have been. So, we have not had 
programs up to date when it comes to kind of disaster response. 
But we have had a lot of programs that are related toward food 
security and stabilization and resilience type work, which does 
kind of impact some of those issues
    Mr. Levin. Well, I am afraid you are going to need to have 
more there and elsewhere.
    Let me just ask you a broader question. Many countries in 
sub-Saharan Africa have spotty electricity grids and coverage, 
and other energy coverage. There is a huge opportunity here to 
help the countries of sub-Saharan Africa leapfrog ahead and use 
renewable energy technologies like solar, and wind, and 
geothermal to provide power to their people. And it could play 
a huge role in combating climate change.
    So, I am curious. My time has expired, but I will let you 
answer and then I will turn it back over, Madam Chairwoman.
    Mr. Day. I would just quickly say that Power Africa has an 
all-of-the-above approach. So, they work on solar, they work in 
wind, they work in a variety of different sectors in the power 
sector. Couldn't agree more. And so it is an area that I think 
will transform many of these areas.
    The Power Africa 2.0 we are transitioning that strategy to 
not just in generation but also in transmission. We have 
learned that if you just focus on generation but you do not 
have the transmission infrastructure then it is not going to 
work. So, we are focusing more on the transmission side as 
well. But all of the above.
    Mr. Levin. All right. Thank you very much.
    I appreciate your patience, Madam Chairwoman.
    Ms. Bass. Absolutely.
    Representative Houlahan.
    Ms. Houlahan. Thank you, Madam Chair. This question is for 
Ambassador Nagy.
    I was wondering if you might happen to recognize the name 
Christopher Allen?
    Mr. Nagy. [Nonverbal response.]
    Ms. Houlahan. So, Christopher Allen is the name of an 
American citizen and freelance journalist who was killed by 
South Sudanese forces reporting on the conflict in South Sudan 
less than 2 years ago. And he is from around my community just 
outside of Philadelphia. He was 26 at the time of his death. 
And his parents, as you can imagine, continue to be heartbroken 
and frustrated by the fact that there really does not appear to 
be any accountability at this point in time for his tragic 
murder.
    And I was hoping if you, since you are not familiar with 
him, would please for the record be able to prepare and update 
a statement for us of what has transpired regarding his case so 
that the State Department can be helpful in working to obtain 
justice for Mr. Allen?
    Mr. Nagy. Absolutely, Congresswoman. I promise you that I 
will look into it. Now that I know the name, which happened of 
course before I came here, absolutely. The loss of American 
citizens, tragedy beyond words. And I will look into it and get 
that back to you.
    Ms. Houlahan. Thank you. I appreciate it. His family really 
is quite heartbroken and I think they very much feel unheard. 
And I think it would be really helpful in this new world order 
if you have the opportunity to look into that for us.
    My next question is for Mr. Day and Ms. Lenihan. And, as 
you are aware, we talked about this a little bit earlier just 
up the dais, the Women, Peace, and Security Act became law in 
2017, and we are expected the required strategy to be released 
any day now from Congress. As we know, it was due in October 
2018. And given the current youth bulge in many African 
countries, I think it is more important than ever, as we talked 
about, to increase the efforts to support girls and girls' 
education, to eliminate child marriage, and to provide women 
comprehensive reproductive health services.
    Can you tell me a little bit about how you are using the 
2011 Women's Peace and Security Act and what you were doing in 
anticipation in release of this other act? Thank you.
    Ms. Lenihan. Thank you. I noted this is a topic I believe 
strongly in and the Department of Defense strongly supports as 
well. In my opening remarks I noted one example which is 
Operation Flintlock which is the CT--I am sorry, Special 
Operations Force exercise where we have a women, peace, and 
security seminar, which we have done since 2017.
    Other examples, in Tunisia we actually have training, all-
female training for intel. And then another example I can cite 
is certain times with our education programs in order to 
provide incentives for greater female participation. A country 
may get an additional slot if a women is offered.
    Ms. Houlahan. Mr. Day?
    Mr. Day. Thank you for the question.
    Again, this is something that USAID has really woven into 
many, if not all, of our programs. We call it a cross-cutting 
issue, this engaging women into, into our program, women and 
girls, as well as youth.
    I think one example would be in Kenya where the Musoni 
Microfinance Organization partnered with DowDuPont to create a 
microfinance facility in which over 5,300 microfinance loans 
were issued through agricultural producers throughout the 
country. 83 percent of them went to women.
    And so this is something that is near and dear, I think, to 
the heart of USAID because, as I said earlier, Africa is not 
going to progress in its development progress without the 
participation of women at all levels, through the economy, 
through the political system, and certainly through the 
educational system as well. So, this is part and parcel of what 
we do.
    Ms. Houlahan. And I serve on the Africa Subcommittee as 
well and really have a deep passion for women and girls in 
particular. I really think that 51 percent our population on 
the planet really deserves a better shake. And I think that we 
have a responsibility as a nation who leads to make sure that 
we are doing that.
    I am pretty disappointed that we, that we struggle with 
this particular situation and that things are consistently late 
in this area. I really appreciate your passion for it as well.
    I have only 45 seconds left. And I just was wondering for 
me, Mr. Day, if you could give me a little bit of an update. I 
know you spoke a bit about the DRC and you talked a bit about 
the Ebola outbreak and that it was not under control. But are 
there any lessons that we have learned that could be further 
institutionalized in order to improve this issue in the 
international community?
    I am sorry, I only have about a half a minute.
    Mr. Day. We are continuing to learn lessons as we go. We 
certainly learned a lot of lessons in the 2014 West Africa 
outbreak. And we have been applying a lot of those lessons in 
this particular outbreak.
    There is a huge difference between the two in that the 
operating environment is just so difficult, it is so complex. 
But we are certainly learning that community engagement just 
absolutely must be at the core of what we are doing because the 
community distress that we are seeing, which has nothing to do 
really from this particular outbreak, this is longstanding 
traumatic issues, marginalization, predatory behavior by the 
previous government. So these are major, major issues. But the 
community engagement element of this is absolutely critical.
    So, we will certainly take that with us if and when there 
is another outbreak as well.
    Ms. Houlahan. Thank you. And I have run out of time.
    I also would like to acknowledge and thank Representative 
Abigail Spanberger for yielding her time to me. I yield back.
    Ms. Bass. Representative Spanberger.
    Ms. Spanberger. Thank you very much, Madam Chair. And thank 
you to our witnesses today.
    Ms. Lenihan, I would like to start with a question for you.
    Earlier this year General Waldhauser testified that AFRICOM 
has not been granted ``offensive strike capabilities or 
authorities'' outside of Libya and Somalia. However, the 
Administration reported to Congress in 2018 that it considered 
two Islamic State affiliates in Western Africa to be legal 
targets under the 2001 AUMF.
    My question is, in which countries does DoD assess it has 
the authority to use military force, whether currently engaged 
in hostilities or not, and under which authorities is it 
operating?
    Ms. Lenihan. As General Waldhauser noted, our two areas 
where we have direct strike actions are in Libya and Somalia. 
Under both of those accounts it is under the AUMF.
    Ms. Spanberger. And are there other engagements in other 
portions of Africa that are falling outside of those two named 
locations?
    Ms. Lenihan. No. We only conduct direct strike in Libya and 
Somalia.
    Ms. Spanberger. Thank you. And pivoting and further 
discussing Somalia, we have dramatically increased our air 
strikes in Somalia. We have hundreds of troops on the grounds. 
And according to DoD reports, we have forces that regularly use 
self defense. We have seen this escalation over the last three 
Presidential administrations. It is not limited to party or 
anything else. But I do find these shifts something that we 
within this committee should be talking about.
    Do you assess that we are seeing a slippery slope of 
engagement or mission creep in Somalia? And do you expect U.S. 
military presence and the use of force to increase further as 
time continues?
    Ms. Lenihan. We have seen some successes and some gains in 
Somalia. So I would say although it is a long slog there, we 
have definitely seen some notes of optimism. We recently hosted 
Prime Minister Khayre at the Pentagon where he talked about 
some of the economic reforms in order to pursue dept relief and 
so forth. Also noting how the security efforts are helping 
create that time and space in order for development and 
diplomacy efforts to take hold and to grow.
    So, I would say although Somalia is a difficult environment 
we are on a positive trajectory there, and that our defense 
activities are just one part of a much broader USG effort. As 
we have noted, for the first time our U.S. embassy has returned 
there. USAID is heavily engaged with a high degree of activity. 
We have also seen some other areas of improvements: the direct 
payments to his soldiers in order to reduce corruption, as well 
as biometric registration of weapons in order to increase 
accountability.
    So, the Somalis are taking some really tough steps in order 
to build out their institutions, build out that infrastructure 
and, ultimately, take responsibility for their own security.
    Ms. Spanberger. Thank you, Ms. Lenihan.
    As a former CIA officer, I believe very deeply in the 
counterterrorism efforts of our country and the nature of that 
as a really multifaceted approach. I also now, as a Member of 
Congress, remain deeply concerned that we are continuing to 
operate under the 2001 AUMF that has been expanded and 
broadened over time.
    Initially it was focused on, on those who, who perpetrated 
the September 11th attack. So, I do note that for the record 
because it is something that I am very focused on.
    But I would like to continue a bit. Ambassador Nagy, given 
the 2018 stabilization assistance review placed the State 
Department squarely in the lead, are you being consulted when 
the military does broaden the scope of military targets, or 
does endeavor to escalate the force in Somalia or Libya?
    Mr. Nagy. On Libya I cannot address that. That is out of my 
area of operations.
    Ms. Spanberger. Yes.
    Mr. Nagy. But in Somalia what we are doing with this, our 
embassies have to give us their individual analysis in July so 
that we can look at it comment-wide and see where we stand. And 
it will become an annex, a strategy that we will look at 
together.
    Ms. Spanberger. OK.
    Mr. Nagy. Just to further our working relationship. So, I 
am encouraged by this process going forward. We very much 
needed this.
    Ms. Spanberger. Thank you.
    Ms. Lenihan. And if I could add to that, we work in close 
cooperation with the State Department on our overarching 
approach in how the security element fits in our broader U.S. 
objective.
    Ms. Spanberger. Thank you. And one quick question for Mr. 
Day.
    It seems that we are all in agreement that the 
counterterrorism efforts need to united defense, diplomatic, 
and development efforts. Are there any other comments that you 
would make regarding how the United States can improve the 
capacity of African countries to prevent, mitigate--to prevent 
and mitigate radicalization and violence so that we can get 
ahead of military engagement?
    You probably need another 20 minutes for that, sir.
    Mr. Day. Maybe so. We look at it from both bottom-up and 
top-down.
    So, we certainly need good partners. And we have some good 
partners on the African continent. In some cases we do not have 
as good partners. So, in those cases we really have to work 
from the bottom up. And that really starts with local 
communities.
    So, just like it does in any country it starts with local 
leaders, local politicians, local chiefs and tribal leaders. 
And so, having that grounding is absolutely critical.
    Now, in an ideal world you can do both. But in some cases 
we do not have that environment.
    Ms. Spanberger. Thank you very much.
    Madam Chair, thank you for letting us run over. To the 
witnesses, thank you.
    Ms. Bass. Sure.
    Representative Phillips, I think you might be closing this 
out. Proceed.
    Mr. Phillips. It sure would look like that. Thank you, 
Madam Chair. And I echo my now-departed colleagues' gratitude 
to our witnesses for appearing today, had the collective 
sentiment about elevating Africa amongst our priorities here on 
this committee.
    I think we would all agree that foreign assistance is a 
pillar of our national security strategy. It should be, 
especially as it relates to addressing the root causes of 
extremism and instability around the world.
    As I am sure you all know, Section 385 of the 2017 NDAA 
empowers the Secretary of Defense to transfer up to $75 million 
to agencies such as USAID and the Department of State to 
implement foreign assistance programs, including conflict 
mitigation, good governance, and peacebuilding to address the 
root causes of violence and instability.
    My question is for you, Ms. Lenihan. And can you tell me if 
the Secretary of Defense has used that authority?
    Ms. Lenihan. Thank you. One, for the Section 385 authority, 
it gives us greater flexibility in order to address the issues 
on the continent. We certainly explored possibilities and 
considered programs, and we would like to implement that at 
some point. But at present we do not have a 385 program 
ongoing.
    Mr. Phillips. OK. So, so nothing has been transferred.
    Can you share something about the programs that you are 
considering or ways that it could be deployed?
    Ms. Lenihan. We have looked at it in the maritime concept. 
We have also looked at it within the Sahel. And there are some 
legal complications and so forth that we have to work through, 
but we are intent on creating a program in order to exercise 
that authority.
    Mr. Phillips. OK. I speak for myself, and I am sure other 
committee members, too, in that, you know, it was allocated for 
a reason, and we would sure like to see it deployed, especially 
considering the challenges that we face and the good uses for 
it.
    Mr. Day, I would like to turn my next question to in my 
district Cargill is based in my district, the Third District in 
Minnesota. Another number of other countries that help feed the 
world. Wondering how the private sector and companies can 
better engage with USAID, perhaps with help of Congress, to do 
better by more people, especially in Africa?
    Mr. Day. Thank you, Congressman.
    You know, the private sector is absolutely critical to the 
administrator's vision for the future of USAID. We have a 
private sector engagement approach policy that we are now 
implementing.
    We are looking at this through the lens of we will never 
have enough resources to meet the need on the African 
continent. But if we can leverage what we are doing and if we 
can partner with the private sector, then I think we can 
mobilize so much more capital, move so much more capital onto 
the continent for the benefit of both African but also American 
companies such as Cargill, and others.
    We have done this already with programs like Feed the 
Future. But we want to take that even, we want to take that to 
scale, which is why we are rolling the Prosper Africa 
Initiative. So, agriculture, because the African continent is 
still very much an agrarian economy, agriculture, and of course 
health, digital commerce is still going to be, these are going 
to be, I think, pillars of the Prosper Africa approach. But 
that engagement and that leveraging of American, the American 
private sector we think is a superior value proposition on the 
continent which, of course, counters the influences of China. 
It helps African development. It creates American jobs.
    And so, this is why this is such a priority for us.
    Mr. Phillips. Wonderful.
    Why do not we close. I would like each of you maybe to take 
20, 30 seconds and just express to us how this committee might 
support efforts in Africa, if you could wave a magic wand and 
implore that we do something. Maybe starting with you, Mr. 
Ambassador, what might we do expeditiously and helpfully?
    Mr. Nagy. I greatly appreciate these kinds of opportunities 
to just publicize for the larger public as to what is going on 
in Africa and the importance of Africa so that we can 
articulate that. And also to show that the partnerships that we 
have together that there really is a whole of government 
approach there.
    And then the tremendous things that, for example, we talked 
earlier about the BUILD Act, ZIDERA, you know, these types of 
other acts which are coming out which make our jobs much, much 
easier. Because, like, for example, in Zimbabwe I can point 
directly to the ZIDER--to ZIDERA and say, no, we cannot, you 
know, open up greater relations until you do X, Y, and Z.
    So, your support in that regard is just phenomenal. Thank 
you very much.
    Mr. Phillips. Thank you, Mr. Ambassador.
    Mr. Day?
    Mr. Day. I could not agree more with the assistant 
secretary. This, this relationship is absolutely critical to 
our success on the continent, whether it is AGOA or the 
chairman and the ranking member's legislation on championing 
American business through the Diplomacy Act, or the Electrify 
Africa Act. I mean, these are all in support of direct goals of 
USAID and transcend any administration.
    So, we certainly appreciate the tremendous support.
    Mr. Phillips. Thank you, Mr. Day.
    Your final comment, Ms. Lenihan?
    Ms. Lenihan. Well, as a testament to the synchronization of 
our efforts, I will agree with my colleague. And just note 
highlighting the importance of Africa, highlighting the great 
work that USAID and the State Department are doing on the 
ground, continuing to maintain a focus on it certainly is 
helpful. And I appreciate the opportunity from this committee 
in order to discuss it today and into the future.
    Mr. Phillips. Well, thank you all, and I yield back.
    Ms. Bass. Well, let me just conclude by thanking our three 
witnesses for enduring the hearing today. It was--Oh.
    Mr. Malinowski. I did just get a message to sprint from the 
Transportation Committee.
    Ms. Bass. Representative Malinowski.
    Mr. Malinowski. Thank you so much, Madam Chair. Thank you 
for fitting me in in the last second.
    So, a lot of things I could ask you guys about, but I 
wanted to focus on a country that I visited I think four times 
in my last few years as assistant secretary of State, and that 
is Ethiopia. And I know it is a country near and dear to your 
heart, Ambassador.
    In 2016 this was an authoritarian State that was going 
through turmoil, potential transition. And we worked incredibly 
hard to try to promote the democratic transition that the 
country sorely needed. And now, here we are looking at perhaps 
the most promising democratic transition of any country in the 
world I would say.
    And I am glad that you agree. But my question really to all 
of you is what are we doing to seize the moment? Because, and I 
know that there are engagements, and just this week you guys 
are, at least at your level, talking to a wide range of 
Ethiopian officials. But this seems to me to be a case that 
calls for a much more dramatic increase in U.S. engagement at 
all levels. I know it is above your pay grade, but I mean, 
this, I would much rather see the Ethiopian prime minister in 
the Oval Office than Viktor Orban of Hungary, given the values 
of this country.
    So, I just want to challenge you all on this, to tell us 
what are we doing to significantly step up our engagement and 
support for Ethiopia? And how are we marrying that what I hope 
will be a significant increase with continued encouragement to 
move down this path?
    Mr. Nagy. Can I start on this one, guys, and I will turn 
it?
    Thank you very much, Congressman, for that question. I do 
not know if you had a chance to see what is happening this week 
at the State Department, but we have the Ethiopia Partnership 
Forum going on with a high level delegation from Ethiopia. And 
line around the block of U.S. business people in the Ethiopian 
diaspora to get in to engage with these high level officials as 
to what they can do for Ethiopia, how they can invest in 
Ethiopia, what are the sectors of investment.
    Because Ethiopia has come to the point where there are a 
couple of things that they desperately need. One is the prime 
minister's grand vision to transform Ethiopia into a true State 
of institutions. With that goes they are, they are working on 
everything. It is like everything is a priority. And, 
unfortunately, in one of those situations where everything is a 
priority it is very difficult for us to fill all the gaps.
    But then what they need more than everything else, and very 
quickly, are jobs. And the prime minister himself has 
articulated that. In that regard, I do not think anybody can 
bring more money into the picture than U.S. businesses and 
other responsible businesses because they are the ones that 
create jobs, not the, not the Chinese infrastructure projects.
    Right after the change started I remember coming over and 
sitting down with Ramsey and Administrator Green to ask exactly 
what can the United States do to very quickly respond to their 
needs? And it has to be triaged because our resources, frankly, 
are not limited. So many of them are tied up that we cannot 
just all of a sudden put tremendous funds together. We are 
working continuously comparing notes with Ambassador Mike 
Raynor. We are so fortunate to have one of our best Ambassadors 
in the world in Ethiopia to see where we can go quickly, 
whether it is sending a technical expert to the Ethiopian Bank 
or to this ministry or that ministry. They have created brand 
new ministries. They want to have relationships across the 
board. They want to open up all sectors of the economy.
    It is an incredible opportunity but it is also an 
incredible challenge to figure out where the United States can 
bring its best value added.
    Mr. Malinowski. Let me actually, because I only have 46 
seconds, so one quick question for you and one for you, Ms. 
Lenihan.
    The former draconian charities proclamation is, has been, 
my understanding, replaced with a new more liberal structure.
    Mr. Nagy. Yes.
    Mr. Malinowski. Are we taking advantage of this to do what 
we could not have done before and to begin to work more 
directly with Ethiopian civil society organizations? Are we 
testing that space?
    And then to you, Ms. Lenihan, can you assure me that DoD in 
its mil-to=mil engagements is making it crystal clear there can 
be no going back, given that the, you know, the security 
institutions in Ethiopia I must imagine were not entirely 
friendly to this transition. Some of them had to be removed 
from the intelligence apparatus. And there is always this risk 
of dual messaging. Can you assure me of that?
    Mr. Nagy. Very quickly. Yes, both at the embassy level and 
here. Tomorrow I am meeting with a group of U.N. NGO's who are 
very interested in Ethiopia. So, we will promote that to the 
best of our ability.
    Mr. Malinowski. Including assistance?
    Mr. Nagy. Yes.
    Mr. Malinowski. OK.
    Ms. Lenihan. And I note on the defense front, we are 
thrilled by the changes that are occurring in Ethiopia and any 
opportunities that that proposes. I was able to be at our 
bilateral engagement with the minister of defense. We had 16 
lines of effort in order to try to embrace them, and through 
engagement really ensure those positive practices that you have 
noted and that there would be no backsliding. To the point 
where, actually, I think we were saturating what they can 
absorb. So, we are trying to manage that.
    But Ethiopia is also stepping up. They are leading 
justified--Exercise Justified Accord this summer, taking a 
leadership role within the region. And so, we are certainly 
working with them on institution building all the way through 
things like exercises.
    Mr. Malinowski. Thank you, so much.
    Ms. Bass. Thank you.
    Representative Omar.
    Ms. Omar. Thank you, Chairwoman Bass.
    So, I just wanted to really get into this horrific reign of 
terror and its spread in Africa. And, you know, we oftentimes 
are really dealing with this issue. And it seems like we are 
attempting to drone it to death. And I am just wondering what 
the particular assessment has been because we know that in 
Somalia, particularly in dealing with Al-Shabaab, since 
President Trump has gotten elected the number of drones has 
increased, but the number of attacks that Al-Shabaab has been 
able to carry out has also tripled.
    We also know the same to be true for Boko Haram.
    And I am just wondering what, where do we go from here and 
what the solution will be, should be?
    Ms. Lenihan. Thank you for your question.
    As I said, the Department of Defense employs a broad 
spectrum of activities and engagements across the continent. 
Our direct strikes is actually a very small component of what 
we do. I noted earlier in my discussion, my testimony, we work 
on building partnership capacity. We do security cooperation, 
draining and clipping, but also working to employ medical 
expertise, as well as security and so forth. So it is really a 
broad spectrum of what we do.
    In the case of Somalia, we also have a broad approach which 
we have building the Danab, which is an Advanced Infantry 
Brigade in order to provide security for people in Somalia, 
high level of protection. We have seen great results from that.
    We also work as a coordinating function in order to ensure 
international donors' contributions are being used as 
effectively without duplication as they can.
    In the case of our strikes, I would say that we take 
ultimate extraordinary efforts to ensure that we reduce any 
kind of civilian harm and that we are working in coordination 
with our partners to include the Federal Government of Somalia 
to ensure that it is in line with what their broader approach 
is on a full spectrum of economic, political, and so forth.
    We are trying to maintain pressure on the network in order 
that we can create that time and space. And we have seen some 
improvements in Somalia, as we have noted before, you know, 
just some of the economic reforms that are ongoing. We have 
seen the Somalis take greater responsibility as far as joint 
operations in lower Shabelle in order to expand the safety zone 
within, within outside of Mogadishu.
    And, additionally I would just note that you see increased 
air flights coming in, commercial flights coming into 
Mogadishu. You see Maersk using the port. So, there are some 
real gains that have been made.
    Ms. Omar. In that breadth, do you see sentiments within the 
Somali community changing against Al-Shabaab? Or should we 
reassess the way that we are dealing with Al-Shabaab? I mean, 
maybe the Ambassador can take that one.
    Mr. Nagy. That I, I wish I could answer, Congresswoman.
    Ms. Omar. And if you could be brief, I have a few more 
questions.
    Mr. Nagy. Sure. I wish, I wish I could answer that. I 
honestly do not know.
    The crux of the matter is, the three of us can work 
together perfectly well but we need that fourth partner, which 
is a willing and capable government in place. The first day on 
the job I talked about Somalia and I asked, how many forces to 
Al-Shabaab have? How many forces does the Somali National Army, 
and AMISOM, and the Federal member States have?
    Based on the numbers alone it should be no contest. But you 
need to have that willingness and that capability in the 
partner. Hopefully, now we are getting to the point we have it.
    I just spoke with Ambassador Yamamoto last week, so.
    Ms. Omar. So, let me ask you this followup question. It 
seems like that there is a direct sort of correlation between 
our droning and the increase of their assaults. And their 
recruitment seems to increase because of some of the civilian 
casualties that might take place.
    And so, how do we mitigate that? What is our strategy to 
make sure that the people are on our side and that they are 
partners in helping us fight terror?
    Ms. Lenihan. And, again I would note that we have a broad 
approach and that strikes are just one minor component of it. I 
think one of the greatest issues in Somalia is just people, 
governance, people feeling as if the government is taking care 
of them, they are providing services, and so forth.
    So as the Federal Government of Somalia expands its own 
capabilities and its reach, then you are going to have the 
greatest impact on eliminating the attractiveness of Al-
Shabaab. In addition to the security efforts that we are 
employing in alignment with our partners, both AMISOM as well 
as other partners in order to try to create that Somali 
national security architecture so that the Somalis again can 
expand the sense of control that they have over the 
government--or over the country.
    Mr. Nagy. I would just like to. And one thing I would 
really like to do, I am looking forward to doing, I am eager to 
do my next domestic outreach up to Minnesota to do outreach 
with the Somali diaspora because I have found in my experience 
that it is extremely useful to engage directly with the 
diasporas to see if there are any other ideas or other 
reflections on how things can be done.
    Ms. Omar. I think that that probably would be very much 
welcomed. You know, in your earlier testimony, testimoneys all 
of you talked about the partnership that needs to happen in 
order for us to have a greater influence in Africa. And I would 
be remiss if I did not say that as an African on this 
committee, when you have a president who uses language like 
``shithole countries'' it makes it really hard for people in 
Africa to sort of think themselves as being in partnership with 
the United States.
    And so I hope that we are in the business of developing 
better relationships, we are in the business of really looking 
at the language that we use to describe these nations that have 
a great potential, that are just looking for a partnership. And 
that is where America really can shine.
    So, thank you. I yield back.
    Ms. Bass. Wonderful. I want to close us out on that note. 
And also reference that in our Subcommittee on Africa we would 
like to followup and have you come back.
    This committee is adjourned.
    [Whereupon, at 12:50 p.m., the committee was adjourned.]

                                APPENDIX
                                
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
